<html>
<title> - IRAQ: ARE SANCTIONS COLLAPSING?</title>
<body><pre>[Senate Hearing 105-650]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-650

 
                    IRAQ: ARE SANCTIONS COLLAPSING?

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                                AND THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 1998

                               __________

   Printed for the use of the Committee on Foreign Relations and the
               Committee on Energy and Natural Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


49-526 cc            U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 1998


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman

RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas

                     James W. Nance, Staff Director

                 Edwin K. Hall, Minority Staff Director

                                 ______

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  FRANK H. MURKOWSKI, Alaska, Chairman

PETE V. DOMENICI, New Mexico         DALE BUMPERS, Arkansas
DON NICKLES, Oklahoma                WENDELL H. FORD, Kentucky
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
CRAIG THOMAS, Wyoming                BYRON L. DORGAN, North Dakota
JON KYL, Arizona                     BOB GRAHAM, Florida
ROD GRAMS, Minnesota                 RON WYDEN, Oregon
GORDON H. SMITH, Oregon              TIM JOHNSON, South Dakota
SLADE GORTON, Washington             MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana

                  Andrew D. Lundquist, Staff Director

                    Gary G. Ellsworth, Chief Counsel

          Thomas B. Williams, Staff Director for the Minority

             Sam E. Fowler, Chief Counsel for the Minority

                Howard Useem, Professional Staff Member

                Mary Katherine Ishee, Counsel, Minority

                                  (ii)

  




                            C O N T E N T S

                               __________
                                                                   Page

Kay, Dr. David, Vice President and Director of the Center for 
  Counterterrorism, SAIC, and Former UNSCOM Nuclear Inspector, 
  McLean, VA.....................................................    34
    Prepared statement...........................................    37
Perle, Hon. Richard N., Former Assistant Secretary of Defense for 
  International Security Policy..................................    31
    Prepared statement...........................................    33
Pickering, Hon. Thomas R., Under Secretary of State for Political 
  Affairs........................................................     9
    Prepared statement...........................................    12
Pollack, Dr. Ken, Persian Gulf Analyst, Washington Institute for 
  Near East Policy, Washington, DC...............................    41
    Prepared statement...........................................    44

                                Appendix

Prepared Statement of Senator Larry E. Craig.....................    59

                                 (iii)

  


                    IRAQ: ARE SANCTIONS COLLAPSING?

                              ----------                              


                         THURSDAY, MAY 21, 1998

                               U.S. Senate,
                Committee on Foreign Relations, and
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committees met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms, 
[chairman of the Committee on Foreign Relations], and Hon. 
Frank Murkowski, [chairman of the Committee on Energy and 
Natural Relations], presiding.
    Present from the committee on Energy and Natural Resources: 
Senators Murkowksi, Domenici, Campbell, Burns, and Johnson.
    Present from the committee on Foreign Relations: Senators 
Hagel, Thomas, Brownback, Robb, and Wellstone.
    Chairman Murkowski. Let me, on behalf of the chairman of 
the Foreign Relations Committee, welcome you to the Iraq 
question, are sanctions working or are sanctions collapsing?
    Senator Helms and I have had numerous conversations on this 
issue, and thanks to him and his professional staff and other 
members of the Foreign Relations Committee we agreed to have a 
joint hearing, and as chairman of the Energy & Natural 
Resources Committee, obviously we have an interest, and I see 
two members of that committee, Senator Campbell and Senator 
Burns who are also here as well as members of the Foreign 
Relations Committee.
    It is my understanding Senator Helms may be delayed, and 
Senator Brownback will make the statement for the chairman on 
behalf of the chairman and himself.
    As well, I am happy to see my Democratic colleagues. I feel 
very much at home back in the Foreign Relations Committee. I 
was on this committee for 10 or 12 years. I had hoped to 
eventually make the Finance Committee, and the worm finally 
turned, and I reluctantly gave up this position.
    But the purpose of today's hearing is to answer the 
question: Have we so weakened U.N. sanctions that Saddam can 
keep his weapons of mass destruction and threaten his neighbors 
and the world's oil supply?
    I think that the actions by the administration and the U.N. 
particularly have rendered the effectiveness of the sanctions 
less than meaningful, and without effective sanctions the U.N. 
inspectors in my opinion will never be able to force Saddam to 
destroy his weapons of mass destruction.
    Just last month, the U.N. chief arms inspector, Richard 
Butler, reported that Iraq is not complying with U.N. 
requirements for locating and destroying weapons of mass 
destruction. Now, the question is, can we verify his arsenal 
through intelligence?
    Well, there is a mixed response to that. We obviously 
missed a little of the activity in India the other day, so I 
will just leave that open for further speculation, but clearly 
we were not and did not detect India's nuclear weapons tests 
before they happened, and how are we going to be sure about 
Iraq?
    Perhaps some in the White House believe that Saddam Hussein 
can be trusted. Well, I can tell you a little story about some 
experience that a number of Senators had back in 1989. Senator 
Dole, Senator McClure, Senator Metzenbaum, Senator Simpson and 
myself were in that part of the world, and President Mubarak 
set up a meeting with Saddam Hussein for lunch.
    We flew to Baghdad to meet with Saddam Hussein and were met 
at that time by our Ambassador, April Gillespie, and while we 
were looking forward to the meeting, Ms. Gillespie arrived and 
advised us that the meeting had been rescheduled for Mosul, and 
we were quite taken aback, because we traveled a long way, and 
reluctantly thought we would make the change, and we would fly 
up in our airplane.
    We were not too sure where Mosul was, up near the Turkish 
border, but in any event we were advised by Tarik Aziz that 
Saddam had sent his airplane down to pick us up. With some 
reluctance we said no, we will go in our airplane. He said, 
well, your airplane is too big. Our runway is under 
construction.
    So with Tarik we went in Saddam's airplane and got up to 
the meeting, which was in a hotel overlooking the Tigris River, 
and began our dialog with Saddam Hussein. At this time there 
was a big issue of a cannon that allegedly was being built, and 
part of it was found on the docks in London, and there was a 
triggering mechanism, and we discussed everything from human 
rights, and the conversational got quite emotional.
    And finally at one point Saddam said, you come out on the 
front porch. He said, there is a helicopter for each one of 
you. You go in the helicopter, land anywhere in Iraq, ask the 
people what they think of Saddam Hussein.
    And Howard Metzenbaum said, I am not going. That would be a 
one-way trip.
    Chairman Murkowski. At the conclusion Bob Dole said: Well, 
I am never going over there for lunch, because Saddam did not 
even buy us lunch.
    So the point of the issue is, as I started to say in my 
remarks, I do not think you can trust him to keep his word, 
even if it is to buy lunch.
    Now, time and time again, I think we would agree Saddam has 
proved himself untrustworthy. We can review the record. In the 
early eighties Saddam invaded Iran. We had hundreds of 
thousands that died. They used chemical weapons against Iran 
out of desperation.
    In 1990, Saddam invaded Kuwait, threatening the oil 
supplies, and the United States and our allies spent billions 
of dollars, put a half-million troops in harm's way to kick 
Saddam's--to keep Saddam from invading Kuwait. He wanted the 
power associated with the oil. It was an oil war.
    Since 1994 Saddam has illegally smuggled oil. Last year, 
earning Iraq nearly $\1/2\ billion. You can be sure that Saddam 
is not spending this money to keep Iraq's children from 
starving.
    I have got a list here of the oil production out of Iraq 
from 1973 through 1998, and his production was roughly 2 to 2.7 
million during that period of 1973 to 1990, and after the war, 
dropped off to 300,000 barrels, 400,000, 500,000, six, and then 
in 1997, the sanctions with the United Nations, we picked it up 
to 1.2 million, and now in February the estimate is 1.7 
million.
    That is rather revealing, because this is more than double 
the amount previously authorized. It is $1 billion for 90 days 
and $4 billion a year, $10.5 billion on oil priced at $15 a 
barrel. That is 1.9 million barrels that the U.N. has 
authorized him to be able to basically market. That is more 
than his production capability currently at 1.7.
    So as we look at what I think is happening, and the purpose 
of this hearing is to address how that oil is being funneled 
into the markets of the world, and how much of it is outside 
the sanctions and is being pocketed under illegal oil sales to 
other countries, and the realization that the United Arab 
Emirates hit a peak in January this year of about 70,000 
barrels a day, and a lot of this goes into the pocket of one 
Saddam Hussein.
    And then in April, Iran allowed Iraq to export more gas, 
oil, and exports to the UAE. Press reports put Iraq's exports 
to Jordan at 100,000 barrels a day. Total Iraq illegal oil 
sales amounted to 450 million last year.
    The bottom line is that we have a situation where Saddam is 
illegally smuggling oil as a consequence of the 
administration's support, I think inappropriately, of the U.N. 
resolution increasing the authorization, and you can be sure 
that Saddam is not spending all his money to keep Iraq's 
children from starving.
    I think the Republican Guard, the military machines, the 
funding for his weapons of mass destruction are what this 
committee is going to address today, so I think it is fair to 
say that as we reflect on our action, the public should be 
indignant relative to what is being allowed here.
    Iraq can now sell more oil than it sold before the Gulf 
War. Iraq is authorized to sell more oil than it can actually 
produce.
    In summary, the United Nations, with the backing of the 
current administration, has undermined sanctions, removing the 
incentive for Iraq to comply with arms inspections. I think 
this makes no sense. Oil sanctions are now basically a 
toothless tiger.
    So as a consequence of that, I, as others, do not want to 
see our sons and daughters engaged in another Gulf War because 
Saddam is stockpiling weapons to attack his neighbors and 
continue his efforts to control as much oil as he can from the 
Mideast that we are so dependent on.
    Remember one thing. We are now about 53-percent dependent 
on imported oil. In 1973, when we had the Arab oil embargo, we 
were 37-percent dependent, so our national energy security is 
at risk. Senator Brownback.
    Senator Brownback. Thank you very much, Mr. Chairman, and I 
certainly want to associate myself with that statement. It was 
very well put, about Saddam Hussein's ability to produce, and 
where he is marketing it.
    I welcome the Under Secretary here today on behalf of 
Chairman Helms. I have got a statement to put in the record on 
behalf of Chairman Helms of the Foreign Relations Committee 
that I will submit for the record.
    I will just note that a number of us in the Senate, 
Secretary Pickering, are very worried that we are going down a 
course now that does not remove the problem from Iraq, and the 
problem is Saddam Hussein, and as long as he remains in power 
we are going to be confronting him and his regime, and whether 
it is chemical weapons or biological weapons or conventional 
weapons, we will be confronting him.
    And now it appears we are on a course to even finance and 
allow the financing of Saddam Hussein in the region, and that 
is deeply concerning to a number of us from various aspects, 
when he is the problem, and now he is going to have more money 
in his pocket, and that is the sort of thing that I want to 
probe with you here.
    And you are going to I think continue to hear a lot of 
comments from the chairman of this committee, from myself, you 
are going to continue to hear it from Majority Leader Lott, as 
long as our strategy seems to allow Saddam Hussein not only to 
stay in power but to grow in strength and grow in financing, 
and I would like to submit this statement into the record, and 
I look forward, Mr. Pickering, to your statement and a frank 
dialog back and forth of where the administration truly wants 
to take the U.S. strategy toward Iraq.
    Is it just, Saddam is going to be there and we are going to 
gradually loosen the hold on him, or are we going to put in 
place a strategy long-term for the removal of Saddam Hussein, 
and that is the better strategy that I think we have to go at.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Helms follows:]

               Prepared Statement of Chairman Jesse Helms

    Mr. Undersecretary, we welcome you to this Foreign Relations 
Committee hearing, and appreciate your joining us.
    Recent events have distracted all of us from our responsibility to 
assess the situation in Iraq. However, I suspect Saddam Hussein will 
somehow catapult himself back into the center of world attention very 
soon. He has good reason to do so: Each time he defies the United 
States and the United Nations, he is rewarded by the U.N. with lighter 
and lighter sanctions.
    Mr. Secretary, I understand the problems you are having with the 
Russians, the Chinese, and especially with the French. But I also 
understand that, if the Administration does not stop seeking consensus 
at any cost, there eventually will come the time when we will have 
whittled the Iraq sanctions down to the point where they are 
meaningless. Indeed, we may already be there.
    The latest oil for food deal with Iraq is a case in point. Consider 
how the Iraq sanctions have been watered down since the end of the Gulf 
War: We have gone from the all out prohibition on oil sales in 1991, to 
permitting Iraq to sell two billion dollars worth of oil every six 
months in 1996 (for the purchase of food). Now, we will permit Iraq--
get this--to sell $5 billion worth of oil every six months. What for? 
Supposedly to repair infrastructure, build hospitals and clinics, 
repair water sanitation, rehabilitate the agriculture sector, import 
oil equipment, agricultural equipment and spend $92 million on 
``education'', whatever all that means.
    Mr. Pickering, what incentive does Saddam Hussein now have, under 
this grand plan, to cooperate with the U.N. inspectors? Every time 
Saddam defies the UN, we punish him by letting him sell more oil. Iraq 
was exporting barely $10 billion worth of oil a year prior to the 
invasion of Kuwait. Another few years of defiance, and he'll be back to 
his pre-Gulf War levels.
    Now, if you are going to reiterate that the difference is that Iraq 
cannot decide how to spend the money: With all due respect, sir, I 
don't buy it.
    First--at the recommendation of the U.N. Secretary General--Iraq 
will now be permitted to completely bypass the sanctions committee in 
the importation of oil equipment. I look forward to hearing what our 
second panel, which includes a former weapons inspector, thinks about 
that.
    Second, inasmuch as the United Nations has taken responsibility for 
all the basic needs of the Iraqi people, Saddam Hussein has been 
completely relieved of any responsibility on his part to provide for 
his people. Thanks to the ever growing generosity of the UN, Saddam can 
now spend all available funds in the Iraqi treasury on the purchase of 
illicit goods for himself and his cronies.
    Consider: Since the end of the Gulf War, Saddam has contributed NOT 
ONE CENT of Iraqi government funds to any food project, any medicine 
project, any humanitarian project of any kind for his people. NOT ONE 
CENT. At the same time, he has been earning upwards of $400 million a 
year--$400 million a year--from illegal oil sales.
    The charts around the room that illustrate the problem. Iraq is 
sneaking its oil out through Iranian territorial waters with the full 
complicity of the Iranian government. The oil is then being sold 
through the Persian Gulf via the United Arab Emirates (incidentally, a 
close Gulf ally of the United States). And over land, Iraq is also 
selling oil through Turkey. There, the volume is so high that trucks 
are sometimes backed up for miles along the border.
    My question is what has happened to that oil money? Where is it 
going? Where has it been going for years on end? And why has obtaining 
this information and stopping this smuggling not been a number one 
priority for the United States and the United Nations?
    What, in fact, has the United States or the United Nations done 
about illegal oil sales? Nothing, barring some feverish hand-wringing. 
Indeed, some have suggested, incredibly, that by allowing Iraq to sell 
all its oil legally, through the United Nations, we'll be absolutely 
sure to remove any possibility of Saddam's profiting from illegal oil 
smuggling. By logical extension, perhaps we ought to sell Iraq missiles 
too, that way we will be sure Saddam isn't looking for them on the 
black market. In fact, while we're at it, why bother with the sanctions 
on Iraq at all?
    Sad to say, it looks to me like these sanctions are a pretty good 
deal for Saddam Hussein. The UN feeds his people, while he gets to 
pocket his reduced (but still substantial) illicit oil profits. And, 
every time he defies the UN weapons inspectors, we let him sell more 
oil. With all due respect, sir, I have my doubts that this grand 
strategy is going to bring Saddam to his knees begging for mercy in 
either of our lifetimes.
    Mr. Pickering, I believe you see my point. The problem is 
straightforward: Beyond these ever-dwindling sanctions, the Clinton 
Administration has no Iraq policy.
    The United Nations and the United States have allowed Saddam 
Hussein to get away with murder. He has defied weapons inspectors; he 
has starved his people to benefit his cronies in the regime; he has 
invaded Northern Iraq and executed opponents. And we are doing nothing.
    Here is the bottom line: Sanctions are an important part of our 
nation's foreign policy arsenal. But sanctions are a means, not an end. 
Our ends in Iraq should be to oust Saddam Hussein from power. If that 
is not our aim, I, for one, would like to know why.

    Chairman Murkowski. Thank you very much, Senator Brownback.
    In other order of attendance, Senator Campbell, Senator 
Burns, Senator Hagel, Senator Johnson, and Senator Robb.
    Senator Campbell. Mr. Chairman, I will not belabor it, 
because I think you said what is on the minds of a lot of us, 
like you and my colleagues I have been concerned about this.
    I guess we are really pretty naive as a country to think 
that we are going to allow him to increase his production to 
almost a level that he had before in the export and sale of 
oil, the level he had almost before the gulf conflict, and he 
is going to put that in children's programs, and seniors? 
Anybody who believes that is flat dumb or naive, there is no 
question about it.
    And it also really bothers me, that agreement that 
Secretary-General Annan made, as I understand it, puts a 
politically appointed group as the overseers of the UNSCOM 
inspectors, and I know when Madeleine Albright testified here 
we asked her specifically about that, and she said, well, they 
will not have any veto authority.
    But that is not what Saddam Hussein has said publicly. He 
believes they do have veto authority, and I think we made some 
bad international policy decisions that are going to come back 
to haunt us in a few years, and I am interested certainly in 
hearing your witnesses, but one thing for sure, we have 
certainly raised his stature in the Middle East and diminished 
ours in this whole sordid affair.
    So I am looking forward to the hearing. Thank you for 
calling it, Mr. Chairman.
    Chairman Murkowski. Thank you very much. Senator Burns.
    Senator Burns. Thank you very much, Mr. Chairman. I want to 
broaden this discussion a little bit this morning, and I want 
to broaden it even to the point where we talk about sanctions.
    Sanctions with any country--and yes, there are a lot of 
them, we just returned from the Middle East 2 or 3 weeks ago 
and we talked to our troops down there, and we also were in 
Bosnia for 4 days, and the only reason I went on the trip, I 
thought it would be a fancy trip because the chairman of the 
Appropriations Committee was going to go, and they travel in 
style. However, 18 hours in a C-141 dispelled that idea.
    I want to broaden this a little bit, and I am also going to 
be a little bit parochial, Mr. Pickering, because we have a 
crisis on the Northern Great Plains of the United States of 
America. We have a problem that when we make our foreign policy 
and we do certain things, because of certain actions it causes 
a lot of distress to us locally.
    I think the Senator from South Dakota is here, probably 
knowing what I am going to allude to, and that is, whenever we 
put sanctions in place there is usually retaliations, and even 
though, ever since the grain embargo of the seventies, you 
cannot stop us from exporting agricultural products, the 
countries retaliate in that area.
    We are looking at a drought. We are looking at the worst 
wheat prices that we have looked at in a long time, and there 
are many factors to that that are uncontrollable even by us, 
and that is the total financial collapse of the Pacific Rim, 
where the vast majority of our exported products go.
    Those exports have gone to nil. Last fall, we had two 
railroads that merged, and they tried to do business down on 
the Gulf of Mexico, and that was a snafu, and a lot of our 
producers did not get to ship in a timely manner to take 
advantage of the market.
    Here are some facts I want you to think about whenever we 
talk about sanctions, and I am going to refer to an article 
that was in Farm Journal in March. Wheat imports by Cuba, Iran, 
Iraq, Libya, and North Korea, all of which are off-limits to 
U.S. products, have doubled since 1995, and account for over 10 
million tons, or 11 percent of the world trade, and we are not 
allowed that market.
    Now, I say that in the context of sanctions do not work. In 
fact, on our list, Mr. Pickering, on our list there are some 75 
countries that represent 52 percent of the world's population 
that we are not allowed to ship to. Other countries are 
shipping there. They ship their product at a premium because of 
the psychology in the market. Then we have to compete on the 
rest of the world market at the lower end of the market.
    We wanted to use some export enhancement programs, some 
export credits, and we finally got EEP on chickens.
    Chairman Murkowski. Chickens?
    Senator Burns. Chickens.
    Chairman Murkowski. That is what I thought you said.
    Senator Burns. We do not raise a lot of chickens in Montana 
or South Dakota.
    Chairman Murkowski. We do not raise them in Alaska, either.
    Senator Burns. Well, there is a reason for that.
    I want to broaden this just to say this morning that I 
think we are going to see legislation that we will hope will 
deal with this, because we have a crisis.
    I am losing people, and yet the truck loads of wheat keep 
pouring across the border from Canada, and we cannot even get a 
hearing on some fairness or balance in this particular 
situation.
    I do not think Saddam Hussein has any sanctions on him. I 
think he is doing exactly what he wants to do, and yet he will 
retaliate on our agricultural products. He will absolutely, 
this man, starve his own people to serve his own purpose, and I 
do not know, the carrot has not worked very good. Maybe the 
stick will.
    But I just want to make you aware of those figures, of what 
sanctions do, and we should look at them very carefully, 
because I will tell you, we have a segment of our economy that 
is responsible for 24 percent of the GDP in this country in 
trouble, and if you think this economy is going to go on 
forever, with that big an industry that has that much impact on 
our economy, is going to stay forever, I would advise that you 
consider otherwise.
    I am very, very upset this morning about this situation, 
and I would like some time to get a hearing, and this is my 
only opportunity that I have. This is the only shot I get, is 
when we have joint hearings.
    But I am very concerned about the oil embargo. I said on 
the Energy Committee, along with the chairman, I am very 
concerned about energy security, and yet we will allow 
different groups to bar us in Montana from going on public 
lands and developing an energy supply that we have so much of. 
It is unbelievable. But we cannot touch it because we make 
policy by a feel-good methodology.
    Thank you very much, Mr. Chairman.
    Chairman Murkowski. Thank you very much, Senator Burns. You 
have obviously got your message across.
    Senator Burns. Well, we do not know yet.
    Chairman Murkowski. Well, I certainly heard it. Senator 
Hagel.
    Senator Hagel. Mr. Chairman, thank you. I, like my 
colleagues, am grateful for an opportunity for the hearing. I 
wanted to advise my friend and colleague from Montana that we 
do raise some chickens in Nebraska.
    Senator Burns. You do not feed them to those football 
players.
    Senator Hagel. That is where the beef goes.
    But it is important, I think, as Senator Burns has framed 
somewhat, that we look at whatever policy we have in Iraq and 
for Iraq, and I think that is much of the core issue this 
morning, not just the sanctions collapsing, are they effective, 
what are they doing, but I think we all realize that enforcing 
sanctions is not foreign policy. It is a tool of policy, and I 
suspect we sometimes get confused about that, and believe 
complying with or enforcing sanctions in fact is a policy.
    Senator Burns makes some good points that need to be 
threaded throughout, I believe, this morning's hearing and what 
we hear from Secretary Pickering, because most of us understand 
that the world is connected.
    And when we start throwing sanctions on nations, and I 
think the latest numbers, we have now 37 nations where we have 
essentially arbitrary sanctions placed on those countries, and 
what impact that has on our economy is not only important for 
our foreign policy, as Secretary Pickering knows as well as 
anybody, which we have had a chance to visit about, but also 
the future of our relationships and our allies and where we go 
in the world.
    And it does come back to one thing. What is our policy? 
What is our role in the world? What should our role in the 
world be? And sanctions are very much connected to that.
    So, Secretary Pickering, it is nice to have you up here 
this morning, and thank you, Mr. Chairman.
    Chairman Murkowski. Thank you, Senator Hagel. Senator 
Johnson.
    Senator Johnson. Thank you, Mr. Chairman. I will be very 
brief. I appreciate your holding this hearing and having the 
opportunity to work with our colleagues on the Foreign 
Relations Committee and I would agree with my colleague from 
Montana that the grain embargoes of the past, whether Nixon, 
Ford, Carter, or whomever, have not necessarily worked to the 
benefit of our Nation's best interests.
    On the other hand, I think we understand that the tools 
available to us are limited and imperfect. If it were such a 
simple matter to rid ourselves of Saddam Hussein, that would 
have been done long ago during the Bush administration. The 
options are limited.
    I am interested in learning a bit more about the oil-for-
food strategy. It is ongoing now. This is unprecedented. To my 
knowledge we have never before had an international effort to 
take over control and regulation of a nation's own resources to 
see to it that they are used for specific purposes, the effort 
is an imperfect one, and I think we have to be concerned about 
the scope of the illegal oil sales that do continue to go on, 
and I would be interested in Mr. Pickering and the rest of the 
panel's discussion of how this fits into that context.
    So I am looking forward to the testimony, and I will submit 
a statement for the record.
    Chairman Murkowski. Senator Robb. It is good to see you 
this morning.
    Senator Robb. Thank you, Mr. Chairman. I am delighted to be 
here.
    I am sure Secretary Pickering is shocked to learn that 
Saddam Hussein is not popular with either of the committees 
that are holding the joint meeting, and that there are 
frustrations with the sanctions, that a silver bullet in terms 
of resolving that problem would be most welcome, and that there 
are perhaps even divergent and occasional parochial views on 
both committees.
    Shocked though you may be, many of us are very pleased that 
you are here. Your update on this situation is timely, and I 
look forward to hearing from you.
    Thank you, Mr. Chairman.
    Chairman Murkowski. Thank you very much, Senator Robb.
    Let me introduce the Hon. Thomas R. Pickering, Under 
Secretary of State for Political Affairs, and we do very much 
appreciate your presence, and look forward to the 
administration's position on the questions that have been 
raised here and the statements by the various Senators. Please 
proceed.

STATEMENT OF HON. THOMAS R. PICKERING, UNDER SECRETARY OF STATE 
                     FOR POLITICAL AFFAIRS

    Mr. Pickering.  Mr. Chairman, Senators, thank you very 
much. Good morning. I will, in my prepared statement, attempt 
to address a number of the questions you have raised, and hope 
that we have an opportunity, in the questioning to follow, to 
follow up on them individually.
    Needless to say, I am pleased to have this opportunity to 
discuss with you today both our policy toward Iraq and more 
specifically the role played in it in the oil-for-food program.
    I want to be very clear at the outset that our fundamental 
goal is to counter the threat that the Iraq regime poses to our 
national interest and to the peace and security of the Gulf. 
This goal remains unchanged from the time of Desert Storm. Its 
importance was manifest in the diplomatic and military 
resources that we brought to bear as recently as last winter, 
when Iraq once again tried to evade its obligations under the 
Security Council resolutions that ended the Gulf War.
    Those resolutions mandate that Iraq is to be disarmed of 
its weapons of mass destruction capabilities and of its missile 
systems with a range of more than 150 kilometers. They also 
mandate the maintenance of sanctions on Iraq until it has 
complied with all of its obligations under a range of Security 
Council resolutions that are relevant to Iraq in every 
particular.
    I will be very frank. Based on Saddam's record, we have no 
reason to think he will comply with the obligations the 
Security Council has levied on Iraq. That means, then, as far 
as the United States is concerned, that sanctions will be a 
fact of life for the foreseeable future, but since our quarrel 
is with Saddam and not with the people of Iraq, we have never 
sought to impose unnecessary hardship on innocent Iraqi 
civilians who have no voice, self-evidently, in the decisions 
which Saddam and the regime make.
    The sanctions never barred the shipment of humanitarian 
goods, principally food and medicine, to Iraq. Since 1991, we 
have worked hard to come up with mechanisms to ensure that the 
humanitarian needs of Iraqi civilians can be met within the 
framework of the sanctions regime.
    There is just one illustration to start this discussion in 
detail. The implication that sanctions somehow have been 
removed, or that we are moving in the direction which Saddam 
desires, is totally antithetical to the clear fact at every 
turn that Saddam hates this program and has done everything he 
can to stymie, block, and defeat it.
    However, to that end, and to deal with the humanitarian 
problems of Iraq without in any way allowing any of the money 
to come into the hands of Saddam, there have been proposed 
several oil-for-food programs within the United Nations by the 
Security Council with varying degrees of success.
    The U.S. first proposed oil for food in 1991 in Security 
Council Resolution 706 and 712. Iraq flatly, completely, and 
continually rejected this program.
    In 1995, the Security Council, with our leadership, drafted 
Resolution 986, which provided a slightly revised oil-for-food 
program. As I noted, Iraq had resisted implementing this 
program and continued to resist implementing this program for 
more than a year. Then it dragged out negotiations with the 
Secretary-General for continuing months, and it finally went 
into effect in December 1996.
    Most recently, we supported the expansion of the oil-for-
food program under a new resolution, 1153, based on 
recommendations from the U.N. Secretary-General that an 
expanded program was needed to meet the legitimate humanitarian 
concerns of the people of Iraq.
    The so-called oil-for-food framework is a unique and 
interesting effort, as Senator Johnson has pointed out. For the 
first time, the international community is using the money, the 
revenues of a State which is subject to strict sanctions, to 
meet the humanitarian needs of that State's citizens.
    Let me be perfectly clear in this. This is not a 
humanitarian assistance program that comes out of the pockets 
of taxpayers in this country or somewhere else, but it is the 
controlled and monitored utilization of Iraq's own resources, 
Saddam's resources, to provide for the humanitarian needs of 
his own people, something that he has continued to refuse to do 
out of resources that were in fact in his hands at the end of 
the Gulf War.
    Since 1990, Iraq has been subject to the toughest and most 
comprehensive international sanctions regime in world history. 
It still is, I want to assure you of that.
    The oil-for-food program keeps these sanctions in place, 
rather than taking them off, but it makes it endurable for the 
average Iraqi, and acceptable, as a result, to the larger 
international community, which, unlike Saddam, is concerned 
about the suffering of his own people.
    The Iraqi Government has no control over any of the revenue 
generated by United Nations monitored oil sales. All revenue 
goes directly into a United Nations-controlled escrow account. 
The Iraqi Government may not legally purchase anything, other 
than humanitarian items it was always permitted to buy under 
the existing sanctions regime, with its own money, but chose 
not to buy, and the U.N. Sanctions Committee must approve all 
of those purchases.
    We sit on that committee, and the committee acts by 
consensus, so we have an absolute veto over the purchases. Once 
in the parts of Iraq controlled by the Iraqi Government, the 
distribution of these humanitarian purchases is observed by the 
United Nations. In the northern areas of Iraq, the so-called 
Kurdish areas, the distribution is undertaken by the United 
Nations directly.
    Without an oil-for-food program in place, our options would 
be very stark, and let me be perfectly clear to you about what 
they would be. We would be watching the Iraqi people starve to 
death. Indeed, with no food, many of them would have been long 
gone by now, while Saddam deliberately refuses to spend Iraq's 
resources on his own people's welfare.
    Or, alternatively, we would be then forced into lifting 
sanctions prematurely, and without any justification at all on 
the weapons of mass destruction side, thereby permitting Saddam 
to enjoy the benefits of his oil revenues and to use that money 
to rebuild his weapons of mass destruction, his conventional 
armaments, or whatever else he chose to do.
    There is no doubt in my mind certainly that without an oil-
for-food program in place the Iraqi Government would continue 
to exploit the suffering of his own people to bring great 
pressure, indeed to force the international community, as much 
as he can, to lift sanctions. This has been Iraq's policy for 
years. It is crass and cynical.
    Frankly, after 8 years of sanctions most States in the 
world either do not understand or do not care that the Iraqi 
Government is fully and completely responsible for the 
suffering of the people of Iraq. They just want to try to find 
a way to end the reports at least, or the suffering itself.
    The oil-for-food program allows us to meet the humanitarian 
needs of the people of Iraq without compromising our firm stand 
on sanctions. In a very real sense, the oil-for-food program is 
a key to sustaining the sanctions regime until Iraq complies 
with all of its obligations under United Nations Security 
Council resolutions.
    The Iraqi Government clearly understands this basic 
dynamic. That is why they hate it. That is why they rejected 
earlier efforts to implement an oil-for-food program, and why 
they have gone to such lengths to obstruct the current program 
and to oppose it both quietly and deliberately and openly.
    We now are working with the United Nations Secretariat and 
with other members of the Security Council to ensure the 
effective implementation of a new expanded oil-for-food 
program, one which the Security Council approved last February 
in Resolution 1153.
    Predictably, Iraq has been dragging its heels, first in 
producing a distribution plan that would allow 1153 and the 
program approved by it to go into effect.
    Even more disturbing, Iraq publicly rejected some of the 
Secretary-General's key recommendations which formed the basis 
for and which are essential to implementing Resolution 1153 as 
was intended.
    Given the importance of the oil-for-food program in 
humanitarian terms and the sustainability of the sanctions 
regime, to which we attach highest importance, we will persist 
in our efforts, nevertheless, to get this program in place and 
get it right.
    I should also mention our continuing concern at the illegal 
traffic in oil and petroleum products which continues to be 
conducted by Iraq. The $5.2 billion ceiling under Resolution 
1153 was specifically intended to allow Iraq to sell legally as 
much oil as is needed to meet the humanitarian needs of the 
people of Iraq after careful study and recommendation by the 
Secretary-General.
    The fact that Iraq continues to export petroleum products 
illegally, and a number of you Senators have mentioned that 
point, and that the Iraqi Government refuses to permit the 
United Nations to oversee and monitor these sales, strongly 
suggests that the proceeds from these sales are intended very 
clearly for nonhumanitarian purposes.
    We are currently seeking ways to make the Iraqi Government 
accountable for this illegal traffic, or to end it through 
tougher enforcement mechanisms, and I will be glad to go into 
this in some detail in response to your questions.
    Obviously, this program is not perfect. We recognize that 
there have been and that there will continue to be problems in 
the implementation of an effort on such a large scale, 
especially given the attitude of Saddam Hussein toward this 
program.
    We also must face the fact that some members of the 
Security Council are unfortunately, in my view, more interested 
in hastening the end of the sanctions than we are, and 
therefore are not very concerned that the oil-for-food program 
be implemented as intended and, indeed, use the absence of 
these kinds of programs to justify sanctions removal, a real 
perversion of the whole effort of the Security Council.
    But these are realities that we have to take into account 
as we move forward with the program, and the program itself is 
one of the key answers to the fictions about the question of 
the United Nations and the United States blocking humanitarian 
aid to the people of Iraq.
    I have outlined for you very briefly our approach to the 
oil-for-food program. I hope that some of these facts will help 
to begin to answer the questions that you have quite carefully 
posed in your statements.
    We have tried, of course, to explain to you some of the 
reasons behind this program and its importance in our common 
objective of keeping the sanctions regime in place until there 
is full compliance. I hope now that we can have a frank and 
productive exchange of views on these issues.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Pickering follows:]

               Prepared Statement of Thomas R. Pickering

    Mr. Chairman:
    I am pleased to have this opportunity to discuss with you today US 
policy towards Iraq and, more specifically, the role the ``oil for 
food'' program plays within it.
    Let me be very clear at the outset that our fundamental goal is to 
counter the threat the Iraqi regime poses to US national interests and 
to the peace and security of the Gulf. This goal remains unchanged from 
the time of Desert Storm. Its importance was manifest in the diplomatic 
and military resources the US brought to bear last winter, when Iraq 
once again tried to evade its obligations under the Security Council 
resolutions that ended the Gulf War.
    Those resolutions mandate that Iraq is to be disarmed of its 
weapons of mass destruction capabilities and of missile systems with a 
range of more than 150 kilometers. They also mandate the maintenance of 
sanctions on Iraq until it has complied with its obligations under the 
range of Security Council resolutions.
    I will be very frank. Based on Saddam's record, we have no reason 
to think he will comply with the obligations the Security Council has 
levied on Iraq. That means, as far as the US is concerned, that 
sanctions will be a fact of life for the foreseeable future. But since 
our quarrel is with Saddam, not with the Iraqi people, we have never 
sought to impose unnecessary hardship on innocent Iraqi civilians who 
have no voice in the decisions the regime makes. The sanctions 
themselves never barred the shipment of humanitarian goods to Iraq.
    Since 1991, we have worked hard to come up with mechanisms to 
ensure that the humanitarian needs of Iraqi civilians can be met within 
the framework of the sanctions regime.
    To that end, we have proposed several ``oil-for-food'' programs, 
with various degrees of success:
    The US proposed the first ``oil-for-food'' program in 1991 with 
UNSCR 706/712. Iraq rejected this program.
    In 1995, we drafted UNSCR 986, which provided a slightly revised 
``oil-for-food'' program. Iraq resisted implementing this program for 
more than a year, then dragged out negotiations with the SYG for 
months. It finally went into effect in December, 1996.
    Most recently, we supported the expansion of the ``oil-for-food'' 
program under UNSCR 1153, based on the SYG's recommendations that the 
expanded program was needed to meet the legitimate humanitarian 
concerns of the Iraqi people.
    The so-called ``oil-for-food'' framework is a unique effort. For 
the first time, the international community is using the revenues of a 
state subject to strict sanctions to meet the humanitarian needs of 
that state's citizens. Let me be perfectly clear--this is not a 
``humanitarian assistance'' program, but the controlled and monitored 
utilization of Iraq's own resources to provide for the humanitarian 
needs of its people.
    Since 1990, Iraq has been subject to the toughest and most 
comprehensive international sanctions regime in history. It still is.
    The ``oil-for-food'' program keeps these sanctions in place, but 
makes them endurable for the average Iraqi and acceptable to the larger 
international community which, unlike Saddam, is concerned about the 
suffering of his people. The Iraqi government has no control over any 
of the revenue generated by UN monitored oil-sales; all revenue goes 
directly into a UN-controlled escrow account. The Iraqi government may 
not legally purchase anything other than the humanitarian items it was 
always permitted to buy under the existing sanctions regime--but chose 
not to--and the UN Sanctions Committee must approve all such purchases. 
Once in the parts of Iraq controlled by the Iraqi government, 
distribution of these humanitarian purchases is observed by the UN; in 
the northern areas of Iraq, the distribution is undertaken by the UN 
directly.
    Without an ``oil-for-food'' program in place, our options are 
stark. Let me be perfectly clear what those options are:

    --Watching the Iraqi people starve, while Saddam Hussein 
deliberately refuses to spend Iraq's resources on their welfare; or
    --Lifting sanctions prematurely.

    There is no doubt that, without an ``oil-for-food'' program in 
place, the Iraqi government would continue to exploit the suffering of 
its people to force the international community to lift sanctions. This 
has been Iraq's policy for years. Frankly, after eight years of 
sanctions, most states in the world either do not understand or do not 
care that the Iraqi government is fully responsible for the Iraqi 
people's suffering--they just want that suffering
    The ``oil-for-food'' program allows us to meet the humanitarian 
needs of the Iraqi people without compromising our firm stand on 
sanctions. In a very real sense, the ``oil-for-food'' program is the 
key to sustaining the sanctions regime until Iraq complies with its 
obligations. The Iraqi government clearly understands this basic 
dynamic. That is why it rejected earlier efforts to implement an ''oil-
for-food'' program, and why it has gone to such lengths to obstruct the 
current program.
    We are now working with the Secretariat and other members of the 
Security Council to ensure the effective implementation of the expanded 
``oil for food'' program the Council approved last February. 
Predictably, Iraq has been dragging its heels in producing a 
distribution plan that would allow UNSCR 1153 to go into effect. Even 
more disturbing, Iraq explicitly rejected some of the SYG's key 
recommendations which are essential for implementing UNSCR 1153 as 
intended. Given the importance of the ``oil for food'' program in 
humanitarian terms--and to the sustainability of the sanctions regime--
we will persist in our efforts nonetheless.
    I should also mention our continuing concern at the illegal traffic 
in oil and petroleum products conducted by Iraq. The $5.2 billion 
ceiling under UNSCR 1153 was specifically intended to allow Iraq to 
sell legally as much of oil as is needed to meet the humanitarian needs 
of the Iraqi people. The fact that Iraq continues to export sizable 
amounts of petroleum products illegally--and that the Iraqi government 
refuses to permit the UN to oversee or monitor these sales--strongly 
suggests that the proceeds from these sales are intended for non-
humanitarian purposes. We are currently seeking ways to make the Iraqi 
government accountable for this illegal traffic--or to end it through 
tougher enforcement measures.
    Obviously, the program is not perfect. We recognize that there have 
been--and will continue to be--glitches in the implementation of an 
effort of this scale, especially given Iraq's attitude toward it. We 
also must face the fact that some members of the Security Council are 
far more interested in hastening the end of sanctions than we are, and 
therefore are less concerned that the ``oil-for-food'' be implemented 
as intended. These are realities we must take into account as we move 
forward with the program.
    I have outlined for you our approach to the ``oil-for-food'' 
program, and have tried to explain some of the reasoning behind it. I 
hope we can now have a frank and productive exchange of views.

    Chairman Murkowski. Thank you very much, Tom Pickering. We 
appreciate your statement.
    We have been joined by Senator Thomas.
    Senator Thomas. I have no statement, sir.
    Chairman Murkowski. Thank you very much.
    Let me just advise Members I am going to limit us to 
roughly 5 or 6 minutes, and we will have a second round if 
necessary, but thanks very much for your statement.
    I am concerned--the oil-for-food is certainly a meritorious 
and humanitarian commitment by the administration which we all 
share, but the concerns are directly related to the illegal 
sales, and whether this action, which is less than a full 
enforcement of sanctions, is allowing Saddam Hussein under the 
circumstances to have the best of both worlds. He is able to 
rebuild his oil refining capacity and production capacity back 
to where it was prior to the Persian Gulf conflict.
    Make no mistake about it, oil is what fuels the economy of 
Iraq, and as a consequence the economy and the ability of the 
illegal oil sales is what fuels Saddam's war machine and the 
capabilities of whatever ultimately he has in mind.
    Now, you acknowledged, Mr. Pickering, that sizable amounts 
of petroleum products are illegally being sold. I am going to 
request with Senator Helms that these two committees, the 
Energy Committee and the Foreign Relations Committee, have a 
briefing with our intelligence community on much of this 
information, which is classified, and I respect and honor that, 
and with the approval of the chairman that would be something 
that I would hope we could proceed with after our recess.
    So putting that aside, the realization that roughly $450 
million of illegal sales of oil was funneled into Saddam's 
pocket, so to speak, to determine as he saw fit what to do 
with, I think this arrangement continues to support a regime 
that ultimately would collapse.
    We saw what happened in Indonesia, where the people finally 
rose up to the point that Suharto stepped down. Now, that 
situation is not going to happen in Iraq. Saddam is going to 
continue as long as he has a substantial control on a cash-flow 
that keeps his Republican Guard and the security that they 
provide Saddam Hussein, which is certainly dictatorial, so I 
think the administration should reflect on the alternatives 
associated with trying to curb the illegal sales effectively.
    Now, some of these, of course, are moving by sea, and you 
know, the merits of a blockade perhaps are antiquated, but what 
in the world is the difference between a no-fly zone that we 
enforce today in Iraq in specific areas, and a prohibition of 
allowing this illegal oil to move out?
    We know where it is going. We have a fleet over there that 
could effectively stop this, or at least make an effort to stop 
it, or cajole our allies to stop buying it, because as long as 
he has that cash-flow, why, obviously he is going to continue 
to do whatever his objective is.
    So I find your statement, while somewhat reassuring, 
inconsistent in specifically how this administration is going 
to curb these illegal sales, which incidentally are not new. 
They have been going on for a long time. They have been 
increasing. The Iraqis are obviously motivated, as they get 
back into production.
    We have had some cooperation with Iran, and then the 
illegal supplies dropped, and now the Iranians have obviously 
gone back and are no longer playing a role in trying to curb 
some of this illegal oil, so they are back in business.
    What I find inconsistent is, Resolution 687 initially 
required that the sanctions, including the embargo on oil 
sales, remain in place, and I emphasize in place, until Iraq 
discloses and destroys its weapons of mass destruction and 
undertakes unconditionally never to resume such activities. 
That was a condition. We came aboard, the U.N. came aboard.
    Despite his terrible record on compliance, stonewalling the 
U.N. inspectors in February, the U.N. Security Council, with 
full support of this administration, massively expanded the 
oil-for-food program, so Iraq can now sell more oil than it 
sold before the Gulf War, and it is going to sell more illegal 
oil, and we both know it.
    And why the U.N. with the full backing of the 
administration has really undermined the sanctions, removing 
the incentive for Iraq to comply with arms inspection, is 
beyond me, and I think that is the point of this hearing. The 
expanded oil sales, along with Iraq's illegal oil sales, is the 
lifeline that keeps Saddam in power, his Republican Guards 
well-fed, and whatever, his program for chemical and biological 
nuclear weapons, on track.
    I ask you specifically, what are you prepared to do to stop 
it, and why have you not done it?
    Mr. Pickering.  Thank you very much, Mr. Chairman. First, 
there are a number of points that you have raised that I would 
like to try to address, and I will, if I may, take some time to 
do so, because they are important and significant questions.
    To begin with, the oil-for-food program is not a derogation 
from the sanctions regime. The commodities it supplied were 
never sanctions. The original sanctions that were put on never 
touched food and medicine. It was never intended to touch food 
and medicine. The oil-for-food regime was put in place when it 
was clear that other things that were touched, including export 
of oil, would not permit Iraq to feed its people, but this was 
put on in a way that kept it entirely under U.N. control.
    In effect, the proposals made by the United Nations took 
the oil export industry of Iraq and put it under the control of 
the United Nations solely for the purpose of feeding the people 
of Iraq, solely, obviously, to deal with an issue which was 
never covered by sanctions, and so the conclusion that the 
sanctions regime has changed or been eroded is not in 
accordance with either the resolutions or the facts in this 
situation.
    Second, you have touched on the question of smuggling, and 
so did I, and it is an important issue, and we really ought to 
talk about it because it is of concern to us. We need, of 
course, to put it in perspective. We need to put it in 
perspective in monetary terms, where it represents perhaps 
about 10 percent of the oil which Iraq can now produce, 
although the monetary resources that Iraq derives from this 
smuggling is somewhat less than 10 percent, and I want to 
explain why.
    There are three areas in which Iraq sells oil not through 
the U.N. system. One of those is to Turkey. There is cross-
border truck trade between Iraq and Turkey through the common 
border area still under the control of Iraq. This amounts to 
about 50,000 barrels a day.
    Second, there is truck trade between Iraq and Jordan. The 
Jordan amount amounts close to 100,000 barrels a day.
    Through the Turkey trade, Iraq derives cash, because the 
transaction is a money-for-oil transaction.
    The Jordan trade is quite different. Jordan has, for many, 
many years, been solely dependent upon Iraq for its petroleum 
resources. It has no other resource.
    Second, the way in which the Jordan trade is organized is 
barter. Jordan is allowed to ship food and other produced 
consumer goods from Jordan to Iraq, and that offsets the oil 
that is provided to Jordan, so it is not a cash transaction, 
and so roughly about half----
    Chairman Murkowski. The Iraqis are growing enough food to 
export it to Jordan for oil?
    Mr. Pickering.  Please repeat your question again. I was 
talking and I missed it.
    Chairman Murkowski. Well, you made a point here, and I 
hated to interrupt you, but I could not pass up the 
opportunity. You are saying the oil is coming out of Iraq and 
the Iraqis are getting food for it from Jordan?
    Mr. Pickering.  That is right.
    Chairman Murkowski. And the Saudis are not interested in 
selling oil into Jordan?
    Mr. Pickering.  The Saudis are interested in selling oil 
into Jordan at world prices. For many, many years Jordan has 
received oil from Iraq at concessional prices, but paid for in 
barter, so there is no cash accruing in the Jordanian 
transaction.
    The third area, and it is one we need to focus on--we have 
been in touch with the Turks, obviously, to see what we can do 
to get that trade shut down, because that does result in cash 
transactions accruing to Saddam's credit.
    The third area is one that we are all concerned about, and 
that is in the Persian Gulf. That amounts to another 50 to 
60,000 barrels per day of transportation, and I see you have 
been good enough to put up the charts.
    This is an example of a small tanker used to move that 
trade and, if I could turn your attention to the maps, you will 
see that there are two sources of Iraqi gas-oil, essentially 
diesel-refined product, that move in this smuggled trade. One 
is in the Iraqi-controlled ports just north of Kuwait, and the 
other is in the Iraqi-controlled ports in the shared estuary of 
the Shatt Al Arab, shared territorially with Iran.
    Both of those smuggling routes take the vessels inside 
territorial waters along the coast of Iran, and at various 
points, depending upon the situation, the smuggled ships either 
make a break for the United Arab Emirates or other ports, or 
try to move further along the coast to escape detection.
    The naval interdiction force which we have placed in the 
Gulf is permitted only to operate in international waters. They 
have, however, increased their efforts, Mr. Chairman, against 
the movement of oil smugglers along the Iraqi coast before they 
get to Iranian waters, and for a period of time, several months 
at the beginning of this year, we saw that Iran was stopping 
this smuggling.
    Now it appears to have returned, and we understand and 
would not be surprised, in fact, if the smugglers pay a 
consideration to the Iranian Revolutionary Guard naval forces 
which are otherwise supposed to keep that smuggling from 
happening, in light of Iran's international obligations under 
the U.N. resolutions. We are going to try to continue to keep 
that process going.
    In addition to that, we have worked very hard to try to 
catch these vessels, although it is a long and difficult 
coastline, moving away from the Iranian shore in the direction 
of ports where they can unload their cargoes.
    United Arab Emirates has been a principal destination, and 
we have worked very closely with them to shut down this 
traffic, and they have shut down traffic that involves their 
own flag vessels and others over which they have authority.
    They have, by the imposition of stricter regulations in 
their ports against the transshipment of volatile gas-oil into 
barges and trucks, also shut down some of this, and the Crown 
Prince, when he was recently here, I had an opportunity to talk 
to further about this, and he promised further coordination and 
efforts on his side from the United Arab Emirates to shut down 
that part of the traffic.
    But this gives you at least an illustration of some of the 
difficulties that our cooperating naval forces face in trying 
to shut down this traffic.
    We will continue, at all of these points along the coast of 
Iraq, to continue to keep all of the pressure we can on the 
Iranians to avoid being complicit in the breaking of sanctions, 
working with the United Arab Emirates and others, and with our 
own naval forces, to continue to try to find ways to reduce 
this smuggling traffic because, as you made clear, any dollar 
that goes freely into Saddam's hands can be a dollar used to 
defeat, obviously, the whole sanctions regime, and it is 
something we do not want, and which we are clearly against.
    Chairman Murkowski. Thank you very much. I am going to call 
on my colleagues. Let me just comment, clearly Saddam has not 
seen fit to comply with the sanctions. Why the U.N. does not 
come together and agree, since they have allowed him to 
increase his production for food and humanitarian purposes, 
that they should enforce collectively the illegal movement 
within the area of coastal authority is beyond me.
    And I would think that the administration could make that 
demand forcefully in the U.N. so that these illegal vessels and 
this illegal traffic could be intercepted by either the coastal 
fleets of the countries associated with it, and that is where I 
would start.
    Senator Brownback.
    Mr. Pickering.  Can I just make a comment on that, Senator?
    First, about six of our allies are cooperating with us in 
the naval interdiction force.
    Second, just to give you a sense of it, 20 of these 
smuggling vessels have already been intercepted in recent 
months, and if we can put one out of action, obviously, it 
keeps them from making return trips.
    I wish I could tell you that we had the kind of influence 
over Iran that would make it possible for us to assure that 
their routing of these vessels, which is a primary escape 
route, as you can see from the map, could be shut down. We will 
continue to do all that we can through people who are close to 
Iran to do what can happen in that area, but that is the 
primary loophole that I see now.
    Senator Brownback. Secretary Pickering, thanks for joining 
us today. I have a great deal of respect for your abilities and 
your background and your knowledge, so I know you come 
prepared, both background and today.
    I want to direct your attention, if I could, to some of 
these charts up here that we put forward that come from State 
Department-U.N. Figures, or combined figures. You can see the 
typical smuggling ship, as you know, is not a big oil tanker. 
Sometimes the oil, the diesel fuel, as you call it, is just 
slopping over the sides as they are sneaking it out.
    The second chart--and if we could have somebody over there 
to maybe bring it up for Secretary Picking to see the numbers 
on that better, would that be possible for one of you? Thank 
you very much--just to bring that up so you can look at those 
numbers, because they were very discouraged about the numbers 
from what they were in January of this year, some 270,000 
metric tons per month being smuggled out, then it fell off 
precipitously, so we were encouraged about that, but now it is 
moving back up, which draws a bit of concern.
    I mean, it looked like something was going right there for 
a while, and now it is opening back up.
    And as you note, the route on that third chart, if I could 
focus you on it, has to come out through Iraqi waters or 
agreed-upon places, as you noted, and it seems like that is a 
natural bottleneck for us to really focus on.
    And I gather in your comment you were saying you have 
focused in that area, but I wonder, have you let up, as to why 
we are seeing this increase, or can we tighten that bottleneck 
back down with them, because it looks to me as if that is the 
point that we can grab it around the throat.
    I have got another question I would like to make, but could 
you briefly respond to that?
    Mr. Pickering.  Senator Brownback, I think there are two 
questions. Question number one is why has the chart gone down 
and then started to go up again, and I think that is directly 
related to Iran. In those months beginning in January, 
certainly in February, we believe the Iranians made a major 
effort to stop this traffic. They have since relented on that.
    I do not know that I can tell you how to read the Iranians 
on this. We need to get them, obviously, back in the earlier 
posture, because it made a real impact.
    The second point is that----
    Senator Brownback. The administration has been very kind to 
them lately, much to my dismay. I would hope they would work 
with you on your ILSA waivers, which I do not agree with, 
although the administration takes another view. Hopefully you 
have got them to where they will work with you very closely.
    Mr. Pickering.  I would hope so, but I cannot tell you that 
I have high confidence in our capacity to influence Iran, 
otherwise I think we could get rid of the weapons of mass 
destruction and terrorism problem which still hangs around, and 
I think which you and I both share a great concern about.
    Senator Brownback. We do, but several of us have different 
ways of dealing with the Iranians. I think you are going to 
find my route over the long run is going to be the right route.
    Mr. Pickering.  I hope I can persuade you I am right, and 
the fact that they did move on this particular thing could be 
translated into more action. We will have to wait and see, but 
we are both agreed on at least where that part of the problem 
is.
    The second part of the problem is that moving along the 
Iraqi coast in a very short area, that is, some of these 
vessels can move directly from Iraqi territorial waters to 
Iranian territorial waters and, as a result, it makes it very 
hard, obviously, for interdiction, and that is in the area of 
the Shatt Al Arab.
    Senator Brownback. Right, but that is the bottleneck right 
there.
    Mr. Pickering.  Others, however, move from ports further 
west than that, further west, and the Iran-Iraq border, from 
ports such as El Fal and Umm Qasr in Iraq, and they come down 
into Iraqi territorial waters and move along their areas, where 
we are going to make a major effort to try to get them.
    The naval force obviously has to operate--a former naval 
officer of 30 years' antiquity should not be commenting on 
this. We might want to talk to one of our naval people, but it 
requires shallow draft vessels and obviously a different 
posture than we have been able to have with our larger vessels 
to interrupt that, but we are clearly going to try that.
    Senator Brownback. If you could, and I guess my time is 
very short, it seems like to me that because these are illegal 
shipments, and clearly illegal shipments, and the world knows 
they are going on, that we ought to be able to put pressure to 
be able to get into Iraqi territorial waters to be able to stop 
these from taking place, and I am not as knowledgeable, 
obviously, as you are on our ability to be able to do that, but 
I would ask, and push that.
    Mr. Pickering.  We agree on that, and we have been talking 
to our Navy and others about doing that, and I believe that 
that is moving in that direction.
    Senator Brownback. The second point I would like to make to 
you, and it is one that more troubles me than all of this, is, 
it seems as if the administration has determined to take on a 
strategy assuming the continuation in power of Saddam Hussein, 
and just saying that this is the way it is going to be, so we 
are looking out over a period of time how this loosens up to 
where the sanctions are not in place.
    Is that indeed the case?
    Mr. Pickering.  No, it is not, and our statements, 
particularly referring back to Secretary Albright's statements 
in March of last year, where she made it very clear, crystal 
clear that our anticipation, our heart's desire, if I could 
phrase it that way, is to be dealing with a successor to 
Saddam.
    We all know, obviously, the difficulties of making that 
happen, and that is a different problem, but our policy has not 
changed in that regard.
    Senator Brownback. Well, if I could, it seems as if the 
facts go contrary to those statements, with the amount of oil 
and gas that went down, back up, with the amount that legally 
is being allowed to flow, with the push of removal of sanctions 
from a number of countries, with our lack of desire or 
willingness to engage a long-term strategy for his removal, it 
is almost as if we are engaged in wishful thinking on the 
administration's part but wishful actions go the other way.
    You have strong support in the Congress to put in place and 
implement a strategy that would continue to really try to hold 
down Saddam Hussein and continue in place the push and the 
power to get him out of office over a long-term strategy, and I 
would just suggest to you, looking at the administration's 
policy from the outside, that the words and the actions do not 
seem to match on this.
    Mr. Pickering.  With respect, Senator, we have never felt 
any lack of support from either the House or the Senate on all 
of these objectives.
    A second point is that we totally agree on the smuggled 
oil. We have no difference on that, and we are doing all we can 
to get at it, and I have explained I think in some detail.
    The third point, quite frankly, your interpretation of the 
oil-for-food program does not accord with our understanding of 
the facts, if I could be very direct on that.
    This is a program that takes Saddam's revenue away from 
him. It puts it in the hands of the United Nations, and it 
allows the United Nations to use this only for stated purposes, 
to feed his own people.
    It is a program which separates him from his revenue and 
his oil, and which separates, in fact, his people from him if 
they begin to know and understand that he is not providing the 
food but the international community is.
    It is a program, because of what we are doing, keeps the 
international consensus on and helps us to avoid people, in our 
view wrongly minded, who want to take the sanctions off, and so 
in effect I think we are accomplishing precisely the objectives 
we agree on, and we are doing it in a way that makes a great 
deal of sense, and we are doing it in a way that obviously 
takes into account the fact that we do not have to starve 19 
million people to do it.
    Senator Brownback. If I were an Iraqi citizen, and the 
situation was getting better, and Saddam Hussein was still in 
power, I do not think I am going to give that credit to the 
United Nations. I think I am going to give that credit to 
Saddam Hussein.
    And I would direct your attention just to yesterday, a 
Reuter's report that was out yesterday that said that Iraq is 
now requesting funds in the oil-for-food program to improve 
their mobile telephone network, and the response was from the 
officials of the United Nations, they are saying, well, they 
cannot show a clear link between that and the oil and food 
needs, and so the U.N. then asked, in return said, ask Iraq to 
restate its request for phone equipment making it clear it 
would lead to better warehouse management and other 
improvements in food distribution.
    Well, that sure seems a long ways from food, and it appears 
as if we have opened this completely wide open.
    Mr. Pickering.  It does to us. We have made it very clear 
we will not support that particular effort.
    Senator Brownback. Well, good, and I hope you will keep the 
strategy of removing him from power.
    Thank you, Mr. Chairman.
    Chairman Murkowski. We have been joined by Senator 
Wellstone, and also Senator Domenici was here and is coming 
back.
    In the order of attendance it would be Senator Hagel next.
    Senator Hagel. Mr. Chairman, thank you. Secretary 
Pickering, thank you.
    This is obviously a difficult situation, no easy answers, 
but I want to focus a little bit on a couple of comments you 
made in picking up a little bit where Senator Brownback was 
going. You referenced our U.N. Security Council partners being 
a little less than enthusiastic about continuation of these 
sanctions.
    Realistically, you have asked yourselves, I suspect, and we 
must all ask ourselves, what is the viability--the real 
question here is, how long can we sustain these sanctions, and 
if we stay with the core issue here of the hearing, are these 
sanctions collapsing in Iraq with an erosion of U.N. Security 
Council support, with an erosion of some allies' support, and 
other complications that you have enunciated clearly, and with 
other Senators here talking about some of the specifics.
    Could you give me some comment, analysis of where you think 
all this is going, and that then leads into the next part of 
this, Mr. Secretary. We know short-term solutions can work for 
a while, and sanctions are short-term solutions. What is our 
long-term solution? What is our policy toward Iraq beyond 
enforcing the implementation of sanctions?
    Mr. Pickering.  Senator, I think there are two quite simple 
answers to both parts of that question. Answer number one, it 
is the U.S. policy that he has to comply with all of the 
resolutions before--I was going to say all the revolutions, but 
all the resolutions before the sanctions can come off.
    Second, having had the pleasure of participating in writing 
these sanctions, it was very clear that when we wrote the 
original sanctions we made it possible for any single permanent 
member, including the United States, to oppose the removal of 
sanctions using the veto that we have, so that they would not 
come off if we were not fully satisfied that all the 
resolutions had been met, and so we have in that sense a unique 
and dispositive role in the removal of sanctions, and I see no 
interest on the part of the United States in changing its 
policy in this regard.
    The second question is, where do we want Iraq to go? I 
think quite obviously we would like to see a successor regime 
to Iraq that would represent the interests of all the Iraqi 
people, the three major ethnic and religious groups, that would 
move the country in the direction we would like to see all 
countries move, one that observes human rights, one that has 
democracy. This would be a real revolution, to go back to my 
former Freudian slip, and take the question that far forward.
    Nevertheless, I think it is in our interests to continue to 
promote that direction for Iraq, however difficult it may seem 
now to see the disappearance of Saddam Hussein right around the 
corner.
    It is certainly what we would like to see, but it is not an 
issue, and it has been debated in these halls and in my halls 
and in the press, that we have, to borrow Senator Robb's 
phrase, a silver bullet magic early tomorrow solution to.
    We must be patient. We must be persistent. We must use the 
very effective sanctions regime that has been put in place to 
continue to keep all possible pressure on this and, at the same 
time, because we have not discussed this in detail, we must 
continue fully to support UNSCOM in the remarkable work that 
they have done, but which is still not complete, in getting at 
the weapons of mass destruction.
    We believe that there are real possibilities he still has 
serious weapons, particularly in the chemical and biological 
area, and we are deeply concerned that there have not been 
answers to all the questions on nuclear and certainly on 
missiles.
    Senator Hagel. Well, I want to go back to another part of 
the question, because it is not your fault that we found 
ourselves a few months ago with one ally who was willing to 
step forward with the United States and say, yes, we will be 
with you, Great Britain said, but we are the only one who will 
be with you to enforce the sanctions, and I think we are 
kidding ourselves a little bit, Mr. Secretary, if we 
congratulate ourselves on sanctions when in fact there is no 
only an erosion, but there may be a rather significant gap here 
in what is happening for the future.
    And I do not know what the answer is. It is difficult. It 
is complicated. It is connected to Iran and all the pieces that 
you know so well, better than probably any of us, but what I 
would like to hear more is about what we are doing to deal with 
that for the long term, because it is pretty clear to me that 
this is a slow death kind of thing.
    We are eroding and eroding, and everybody is backing off 
from the latest position that the administration is taking that 
Senator Brownback mentioned on the ILSA sanctions, and I think, 
by the way, there is some thoughtful pieces to that, and I 
think it is defensible in some areas, but we do not want to 
keep going through this and have to put you in a position, nor 
do you want to be in that position, to have to defend every 30 
days more of an erosion here, so if you could give me a little 
more than what you have here, what we are doing about that, 
because that is obvious.
    Mr. Pickering.  Sure. Let me just say, in February, when it 
looked very much like we would need to use military force, more 
than 20 or 25 States--and we will get you the list--made actual 
contributions, some in aircraft and in men, some in basing, 
some in other support, and beyond that an additional number, up 
to 40 or 45, made very strong statements in the public realm in 
their own countries in support of us should we have to use 
force to deal with a problem with UNSCOM, or whatever it might 
be, and so I do not think the international community is 
eroding.
    What I do think is that Saddam has managed to convey the 
idea that it is the international community that is responsible 
for the plight of his people rather than he himself, who in 
fact failed to use this particular U.N. mechanism for 5 years 
or 6 years to feed his own people.
    And why did he do it? He did it precisely because he saw it 
as taking away his own control, as sequestering his revenue, if 
I could use it that way, and using it for purposes than he 
would otherwise want to use it, and so he was in the position 
of favoring oil in the ground rather than oil coming out to 
feed his own people.
    Now, I believe that is extremely important. I do not think 
anybody who lives under the tyrannical regime of Saddam is 
quite frankly happy whether they are fed better or not fed 
better, and I think that that is self-evident and apparent for 
lots of people who come out, including members of his own 
family.
    Finally, I am concerned that the United Nations members of 
the Security Council have swallowed Saddam's line maybe hook, 
line, and sinker, and as a result we are moving a program 
finally which I believe is the right sort of program to deal 
with the humanitarian problem and getting those people back on 
the right side of the fence with respect to sanctions by doing 
this particular approach, and so I think the oil-for-food 
program is bad for Saddam and good for the Iraqi people and 
good for us in our effort to maintain the sanctions regime.
    Senator Hagel. Mr. Secretary, thank you.
    Chairman Murkowski. Thank you very much.
    Senator Robb.
    Senator Robb. Thank you, Mr. Chairman.
    Secretary Pickering, the last thing I want to do is be 
perceived as in any way, shape, or form supporting Saddam 
Hussein or any of the actions he has taken or, indeed, of not 
being sufficiently encouraging to the administration to keep 
the pressure on in every way possible.
    But a question does come to mind when you focus on the 
amount of effort that Saddam Hussein is placing on getting rid 
of these sanctions that are no longer working and eroding, and 
I do not take issue with the fact that sanctions are eroding, 
and they always do over time, and they are very difficult.
    Let me ask you a question about sanctions generally. Are 
you aware of other places in the world where critical U.S. 
interests are involved where sanctions are working especially 
well and effectively in ways that give no evidence of attempts 
to bypass on the part of the rogue nation, or the leadership 
desired to be isolated?
    Are there instances where sanctions have been a perfect 
force, or are we, in effect, confronting a situation where it 
is not bringing about the result we want in the timeframe we 
would like to have it, but the alternatives may be even less 
attractive if we consider all of the implications and 
consequences?
    Mr. Pickering.  Thank you, Senator Robb.
    First, I accept Senator Hagel's admonition that we should 
consider sanctions as a tool and not as a foreign policy, and 
not as an objective of foreign policy, although confusion often 
arises around these points.
    Second, I cannot tell you that I know of any place today, 
and there are very few places where we have multilateral 
sanctions, which I think by definition, sir, are the kind of 
sanctions that have a chance of being effective, where there 
are not efforts to circumvent them.
    The world community is not united on very, very many of 
these issues. We happen to feel much more strongly than many 
countries, both up here on the Hill and down at the other end 
of Pennsylvania Avenue, on a lot of these questions.
    We have used and are continuing to use sanctions as a 
foreign policy tool way above many others, and most disagree 
with us and therefore find it useful and, in fact, maybe the 
root of their disagreement is that they could take advantage of 
our preoccupation with sanctions for moving ahead to take away 
the share of the trade that we enjoy, or the share that we 
might expand to were sanctions not in place, because we are 
obviously the world's largest trading partner, and we are 
continuing to be more efficient and more effective in that 
particular effort.
    I also think--and you will have seen it, too, because I 
have heard from it that often sanctions have a reaction and an 
impact against American domestic interests far outweighing 
their impact on others.
    There is one historical example that is debated by the 
political scientists, but it is frequently cited, and that is 
the long-running sanctions against South Africa as having had 
an effect, maybe even more a political effect than an economic 
effect, but I would leave it to the historians and the history 
books to come to a final determination.
    What I do believe, however, is that they played a serious 
role in bringing about change in South Africa over a long 
period of time, and the exact quantification of that I think is 
in doubt and debate, and I have engaged in debates with a 
number of people about that, but I tend to feel that they are 
important. They are perhaps in a different way, in a lesser way 
in what was then Northern Rhodesia, now Zimbabwe, but that is 
even more debatable.
    So the record here is not an easy one, I think, to defend 
as having sanctions is the silver bullet, to borrow your phrase 
again, to end all of these problems.
    Senator Robb. Is there any serious debate as to whether or 
not the removal of sanctions is Saddam Hussein's number one 
objective?
    Mr. Pickering.  I think there is a serious debate that his 
number one objective exclusive of any others is the removal of 
sanctions. I also think his number one objective, together with 
removal of sanctions, is the preservation of everything he can 
preserve in his weapons of mass destruction program.
    Senator Robb. Let me look to the other side of the 
question. Again, I feel a little awkward in the situation, 
because I have consistently been advocated a tougher position 
in many cases than the administration, or succeeding 
administrations have taken against not only Saddam Hussein but 
others who have thwarted the will of the international 
community in much the same way, but what would be the effect if 
we were to end the food-for-oil program at this point on the 
Iraqi people, and what would be the reaction of the 
international community?
    Mr. Pickering.  I covered that in my prepared statement. 
The options if we end the oil-for-food program I think would be 
serious mass starvation in Iraq, at least major reductions in 
caloric intake levels of very serious proportions. I am not a 
nutrition expert or a specialist in this.
    It is also very clear that that would take place because 
Saddam began by feeding his people on a minimal basis and then 
has taken advantage of unfortunately the oil-for-food program 
to reduce that support. It would take a more deep study to know 
whether there was a cash advantage to him in that or not. I 
just do not know.
    The other alternative would be, in my view, adding impetus 
to the pressure that we have seen to remove sanctions in order 
to deal with the problem of mass starvation, or at least mass 
underfeeding of the Iraqi people, and as a result, that is why 
I make such a strong case for the oil-for-food program.
    Senator Robb. What is your sense, and I know you alluded to 
this as well as to the ultimate effect, at least in a more 
cataclysmic sense, of what would happen if the oil-for-food 
program were eliminated, but what is your sense of the effect 
of the rather porous sanctions effort that is taking place to 
date with all of the carve-outs that you alluded to in your 
opening statements?
    How would you characterize the health of the people that 
the food-for-oil sanctions, or the exception to the sanctions 
are designed to assist, as compared to those that are 
particularly loyal to and surrounding Saddam Hussein, to 
include the Republican Guard and other echelons of society that 
he might favor?
    Mr. Pickering.  Well, as I said in simple terms when I was 
in New York before the Gulf War began, Saddam in relation to 
the sanctions regime would eat the last chicken sandwich in 
Iraq, so we know in fact that he and his people are certainly 
taken care of by whatever money the regime had hidden, had in 
the bank, sequestered, or is able to chivvy out of illegal oil 
smuggling, which is his principal source of income, and that 
remains the case.
    Second, it does seem to me clear that with the oil-for-food 
program, which began in late 1996, the health and nutritional 
status of the people of Iraq has improved. The Secretary-
General went to look at it because in November a team that went 
out there was still disturbed by both what they hear and 
thought they saw. His recommendations that came forward earlier 
in the year and were looked at by the Security Council in 
February, or the increase that we are now talking about, were 
based on that and that, of course, is coming forward.
    I would just add one other point, and that is that the 
United States is not in any way barred under U.N. supervision 
from participating in this program and, indeed, a very large 
share of the food, to get back to Senator Burns' question, that 
goes into Iraq would come from American sources through the 
U.N. program, carefully monitored and supervised.
    Finally, if sanctions were to come off we would be 
literally turning over to Saddam something between $10 and $15 
billion in free money to use. If the oil-for-food program stays 
on, certainly we would like to keep it there for as long as 
that can possibly be kept on in order to keep the sanctions 
from coming off.
    That money is in escrow accounts in the United Nations, 
carefully supervised. We and others make decisions about how it 
is spent, and the issue is that it is spent on food and 
medicine for the Iraqi people and not free money available to 
Saddam. It seems to be something that the committee had a 
misimpression about when we started out today.
    Senator Robb. In your judgment, is that program working? 
Again, I do not want to get into a whole Iraqi frozen assets 
question, but is that working?
    Mr. Pickering.  I believe it is. No program this large, as 
I said in my opening statement, is going to be free of problems 
or glitches, but I can tell you that the people inside our 
Government who watch these things very carefully have recently 
told me that they believe both the monitoring and the absence 
of diversion is--in their view that standard is being met quite 
well by the United Nations.
    They have not said we do not have any problems, but they 
said we do not have any major problems, if I can put it that 
way, in this area.
    Senator Robb. Thank you. My time has expired. Thank you, 
Mr. Chairman.
    Senator Brownback. Thank you very much, and I do not get 
this honor to do this very often, but I would like to call on 
Mr. Domenici for a round of questioning.
    Senator Domenici. I am very respectful of your 
chairmanship. Thank you very much for calling on me.
    First, Mr. Pickering, one of the things that happens around 
here that is not so good for me is that for maybe 10 years or 
so I do not get to talk to you very often. Our paths do not 
cross.
    And I remember back when we were in the U.N. and we used to 
see each other a little more--I do not know why. Maybe the 
assignments--but I had great respect for you then, and I 
continue to have it now, and when we come down hard on what is 
happening over there with Saddam Hussein and where we are 
going, none of it is directed at anybody personally, and 
certainly not at you.
    I happened to, within the last 2\1/2\ weeks, go to both 
Kuwait and Saudi Arabia, and I guess my first question, or the 
first thing I learned in Saudi Arabia that was startling to me, 
and I just wanted to ask you if you were aware of this, we had 
the luxury of having the equivalent of their OMB Director in 
Saudi Arabia, and you understand who that gentleman is, highly 
respected, used to be on the World Bank board, was Deputy 
Director of IMF, et cetera, and he is not a member of the Royal 
Family, and he talked about the budget of Saudi Arabia and 
their country, and I assume you are aware that in terms of 
their fiscal situation they are in very bad shape. Is that a 
fair assessment?
    Mr. Pickering.  The degree of bad is something we could 
argue about, but I do not quibble with the basic statement.
    Senator Domenici. Well, let us say they are in extreme 
deficit this year, very, very large.
    Mr. Pickering.  And borrowing.
    Senator Domenici. And borrowing. They are not interested in 
increasing their expenditures for military. I assume you know 
that.
    Mr. Pickering.  I understand that.
    Senator Domenici. And second, or third, we were told--and 
it matters not by whom, but somebody who is supposed to know 
over there, we were told that they thought it was time for 
America to pull back from Kuwait and Saudi Arabia and take a 
lot of our troops out of there and put them in the regions 
around there, that they did not think they were that important 
any more.
    And last, believe it or not, Senator Robb, I asked if we 
had to have another Desert Storm, could the Saudis pay their 
fair share, and the answer was no.
    Now, I understand the Ambassador would not take that as a 
final conclusion, but it does lead me to think that the United 
States of America may very well be the only power in that area 
that is assumed to have all the resources in the world, all the 
manpower in the world, all the men and women in the military in 
the world, and ultimately, when it comes right down to it, we 
are going to do something over there or it is not going to get 
done.
    Now, is that a fair statement, or would you argue with it, 
if you would care to?
    Mr. Pickering.  I would argue that our leadership is, as I 
think you have put it, is extremely important, as it is all 
around the world, but I would also argue that others are 
willing to be with us, and that Saudi Arabia and Kuwait, when 
it comes to existence-type problems, existential-type problems, 
are certainly going to make the right decision in their own 
interest, as they did when the question came up at the 
beginning of this year for us beefing up our forces in the area 
and working out of their territory and being close to them.
    They also obviously for years have liked the idea that the 
United States was a close friend and ally, that we could do it 
all from over the horizon. Nobody likes foreign forces on their 
soil, particularly on a long-term basis. On the other hand, I 
think that we have found useful ways, working closely with 
them, to resolve those particular problems, but they go up and 
down under the circumstances, and I believe we have to be 
flexible in our leadership there.
    The issue is obviously, as you know much better than I, 
because you have been at this a long, long time, very much tied 
to world energy resources, and access to world energy 
resources.
    Senator Domenici. But look, here is the point. They also 
suggested in Saudi Arabia that first they are not going to 
increase their defense. I have already suggested that to you. 
If anything they are looking to cut it.
    The only country that really seems to be totally backing us 
and willing to talk about the disproportionate share we are 
paying is Kuwait, and they are the only ones already paying 
their share and more in that region, and perhaps rightly so. 
They were invaded. The other ones were not.
    But it seems to me that the United States of America cannot 
win our political goals in the area unless there is absolute 
and total support from countries like Saudi Arabia, Kuwait, the 
Emirates, and those other countries that we seem to be there to 
help protect.
    Incidentally, of all of the sanctions and other things that 
are about, the one thing that the Saudis said unequivocally 
they want to enforce is the sanction on how much oil Iraq can 
produce. Everybody would guess they would be for that, right? 
That is money in their pockets. To the extent that Iraq 
produces a lot of oil, the price of oil probably comes down, 
and so the strongest thing they want is to impose the quantity 
of oil that they can produce and get into the open market.
    I guess I am kind of concerned, because when I see this 
less-than-total commitment, and we seem so concerned, we are 
ready to take this to the American people on having a major 
military intervention with our people leading the parade, I do 
not think any of this is going to work, and I am not so sure we 
ought to have our men and women committed over there in large 
numbers like we have, so unless people like you can tell us 
that the Saudis, the Kuwaiti's and others there are as 
committed as we are, or more, or else I wonder why should we be 
so concerned.
    Mr. Pickering.  Senator, I would just like to say, on your 
last point, that every time it has come to critical decisions 
those Governments have been with us and they have worked with 
their people to understand the importance of what we have to 
do.
    They want to be obviously with us in both the process of 
carrying out the decisions, but also in consulting closely with 
us in making the decisions, and that is a process that we 
follow, and it is an important process, because obviously they 
want to be, to use the old phrase, in on the take-offs as well 
as the landings on these particular sets of issues, and I think 
that is extremely important.
    The second point, I think, is that Saudi Arabia, 
interestingly enough, has supported the oil-for-food program, 
and why? Simply put, because they have seen it in its two 
dimensions. They have seen it in its dimensions as humanitarian 
need, and the Saudis are particularly attached, as members of 
the Arab world community, to fellow Arabs who are suffering, 
innocent of crimes, and under the yoke of Saddam, and they have 
supported that.
    But they have also seen that this takes revenue, if you 
like, away from Saddam, and they want to be sure that it does 
not get back into his hands, because they will be the first to 
get hit if, in fact, Saddam is able to rebuild his conventional 
forces and his weapons of mass destruction.
    Senator Domenici. Well, I did not come here, nor have I 
said a word that would imply that I do not think the food-for-
oil is a bad policy. I am not saying that. What I am saying, 
the whole scheme seems rather porous, and as we seem to be led 
to believe that this will work, to me it seems like the longer 
time passes the less it is apt to work.
    And my last observation has to do with the Saudi Arabians 
and the Iraqis as it concerns the underpinnings of the regimes, 
which I do not care to bring up here today, but I tell you, it 
is very difficult for this Senator to listen to their OMB 
Director tell us how poor they are when you do not have to ask 
the CIA to tell you how many palaces each Crown Prince has and 
how much they are worth.
    And you know, I am not one who has ever tried to have this 
rich-versus-poor part of my vocabulary up here, but rather, if 
you think I am going to vote to put a whole bunch more money in 
there for an event that we need to be in, and we do not have 
the Saudi Arabians right up front, if they have got to borrow 
money, borrow it. It is their oil, and it is their lives, and 
they are right next door, and we have got to go over there and 
meet our young men and women who are out there in the field.
    You know, we met some in the field who had been back there 
11 times since the end of the war, because Saddam plays us like 
a little yo-yo. I mean, he does a few things and we ship them 
all over again.
    In fact, one of the Saudi leaders said that is what he 
thinks is actually happening, that they do their little thing 
and America gets all worked up and they send 40,000 more troops 
over.
    Who do you think goes? The same guys who went before, and 
11 times is a lot for somebody married with a few kids. That is 
worth a lot of dollars. That does not have anything to do with 
millions. That is quality of life, and you are going to lose 
these guys.
    So I am going to do a little more active participation in 
this, and I think I understand the significance of it, and I am 
not afraid to talk about whether we are going to put money in 
our budgets for things that they are not going to put in their 
budgets, I will tell you that for sure.
    Chairman Murkowski. Thank you, Senator Domenici.
    I would like to thank the Hon. Thomas Pickering for his 
response to our concerns. We have one other panel, and let me 
just summarize very briefly.
    I think we have acknowledged here that there are illegal 
oil sales occurring at a level that is unacceptable to the 
United States and should be unacceptable to the United Nations, 
and should be acknowledged that immediate action should be 
taken collectively.
    What that action should be, obviously, is to end by 
enforcing, if you will, a patrol action sufficient to 
substantially curb and hopefully eliminate this movement of 
illegal oil, which we acknowledge is running about $450 million 
last year, and with the increased capability of Saddam 
Hussein's refining capacity and oil production it is likely to 
increase if, indeed, steps are not taken.
    Now, I personally do not feel that this administration is 
working toward a clear and definable end to the regime of 
Saddam Hussein, and maybe that is obviously easier said than 
done, and I am certainly sensitive to that, but it begs an 
issue, Tom.
    You know, here is the New York Times, U.N. report sees no 
Iraqi progress on weapons issue. This was dated April 17. 
Threat of crisis remains. Inspectors said to find failure to 
meet terms on sanctions. Baghdad is defiant.
    And we know who we are dealing with. He is going to use 
every opportunity to circumvent the intentions of the sanctions 
and his concern for the people, and this is what the food-for-
oil is really all about, is if he can have, if you will, a 
quality of life, he is going to take credit for it in Iraq, and 
those Iraqi people are going to recognize this dictator as 
benevolent, if you will.
    And also there is a reality that he rules by force. The 
Republican Guards have basically saved him from assassination 
on numerous occasions internally, but when I read that a report 
by the United Nations chief arms inspector has concluded that 
Iraq is not closer to meeting the requirements for the lifting 
of sanctions than it was last fall, and that the evidence in 
the report of Iraq's failure to provide any new information on 
its weapons compiled with a new outburst of defiance from 
Baghdad, it raises once again the prospect of confrontation 
between Iraq and the U.S., which has twice already threatened 
military action.
    This is a report by Richard Butler, chairman of the United 
Nations Special Commission. It has been turned over to the 
Secretary-General. This is where we are today, and to suggest 
that this arrangement is benefiting the people of Iraq without 
the simultaneous recognition of its prolonging the regime of 
this despot, I think has to be looked at in terms of how the 
world is going to free itself of Saddam Hussein, and clearly, 
in my opinion, the policy that the administration has embarked 
on simply prolongs his presence in that country until such time 
as he has built up an infrastructure sufficient to again 
achieve whatever his objectives and goals are.
    So for whatever that is worth, that is a concern that I 
wanted to share with you and I would look forward again to our 
continuing communication, and it would be my intent again, 
after the recess, to have our joint committees have a review 
from our security people at the CIA and other sources relative 
to some of the material that we cannot disclose at this open 
hearing.
    Is that fair enough, Tom?
    Mr. Pickering.  Yes.
    Senator Brownback. If I could, just on behalf of the 
Foreign Relations Committee, thank you very much, Secretary 
Pickering, for coming up and joining us.
    I would simply make the point in closing that there have 
been a number of press reports that say that the administration 
is moving toward a deterrence policy toward Iraq, rather than a 
removal of Saddam policy, and I was happy to hear today that 
you have said that that is not the case.
    I do hope our actions continue to match those words of that 
policy, and that we not shift, because I fail to see any 
advantage that the U.S. gets from shifting to a deterrence 
strategy, so I am glad that you agree with that, and we will 
continue to point out where we think you might be able to 
improve in that policy area, and I have great respect for your 
abilities and your work that you have done over the years and 
with these difficult problems.
    Thanks for being here with us today.
    Mr. Pickering.  Thank you, Mr. Chairman.
    Chairman Murkowski. I am going to call on panel two, and 
obviously, the Hon. Richard Perle, former Assistant Secretary 
of Defense for International Security Policy.
    Mr. Perle, you have had an opportunity to hear the Members, 
as well as Tom Pickering, so we look forward to your statement.
    You will be followed by Dr. David Kay, vice president and 
director of the Center for Counterterrorism and former UNSCOM 
nuclear inspector, followed by Dr. Ken Pollack, Persian Gulf 
analyst, Washington, D.C.
    I would appreciate you summarizing your statements, and why 
do we not shoot for 5 minutes and give you 7. How is that?

STATEMENT OF HON. RICHARD N. PERLE, FORMER ASSISTANT SECRETARY 
          OF DEFENSE FOR INTERNATIONAL SECURITY POLICY

    Mr. Perle. Thank you, Mr. Chairman, for including me in 
these deliberations. You have convened this morning to examine 
the question, Iraq: Are Sanctions Collapsing? You will hear at 
least three perspectives on this issue. You have already heard 
one. I can give you mine with some efficiency. The sanctions 
regime is indeed collapsing, along with American policy toward 
Iraq.
    In fact, there is little to distinguish the Iraq sanctions 
from American policy, since American policy is nothing more 
than the desperate embrace of sanctions of diminishing 
effectiveness, punctuated by occasional whining, frequent 
bluster, political retreat, and military paralysis.
    What the administration calls a policy of containment has 
become an embarrassment. As our friends and allies in the 
region and elsewhere ignore our feckless imprecations and 
reposition themselves for Saddam's triumph over the United 
States. That is the situation we are facing.
    More than 6 years after his defeat in Desert Storm, Saddam 
Hussein is outsmarting, outmaneuvering, and outflanking what 
may be the weakest foreign policy team in any American 
administration in the second half of this century, and as I 
wrote those words I thought back through all the foreign policy 
teams I could recall.
    The coalition once arrayed against Saddam is in disarray, 
marking a stunning reversal in the position of leadership 
occupied by the United States just 6 years ago.
    Ambassador Pickering, I said in my prepared statement, will 
undoubtedly tell you--I can now say he did tell you--that 
everything was fine, that American diplomacy in the Gulf is 
determined and effective, that we have been and will continue 
to be successful in containing Saddam.
    But everything is not fine. American diplomacy in the Gulf 
is weak and ineffective. We have been failing to contain Saddam 
politically, and he is getting stronger as American policy 
becomes manifestly weaker. The United States, mass marketer to 
the world, is losing--and Secretary Pickering acknowledged it--
is losing a propaganda war with Saddam Hussein, mass murderer 
of his own citizens, over the issue of humanitarian concern.
    With much of the world believing that Iraqi babies are 
starving because of U.S. policies rather than the policies of 
Saddam Hussein, we are facing a political diplomatic defeat of 
historic significance in the Gulf. The administration, bereft 
of ideas, energy, and imagination, is doing nothing to stop it. 
On the contrary, they are working hard to blunt, deflect, and 
defeat such initiatives as have been forthcoming from the 
Congress.
    You will hear from others perhaps in classified meetings as 
well as this one about violations of the existing sanctions 
against Iraq. I am sure that even the CIA, which has a nearly 
unbroken record of failure in assessing, understanding, and 
operating in the Gulf, will report how Iraqi oil is loaded on 
barges and shipped to UAE waters where, after appropriate fees 
have been collected by Iran, the cash-flows back to Saddam.
    You will certainly hear that enough South Korean four-
wheel-drive vehicles to equip two Republican Guard brigades 
made it easily through the barriers erected to enforce the 
current sanctions--barriers, by the way, based on 151 United 
Nations inspectors overseeing a country of 22 million people.
    The committees will learn how Saddam controls the 
Republican Guards that tighten his grip on a hapless Iraqi 
people as they queue up to receive humanitarian food purchased 
with oil-for-food dollars. I think your point, Mr. Chairman, 
was exactly on. The Iraqis who receive food through this 
program, which Ambassador Pickering suggested was firmly under 
our control, in fact receive the food when Saddam Hussein 
grants them a ration card, and I leave it to you to decide who 
they consider to be the benefactor.
    After you have been briefed by the administration and its 
experts, after you have examined the facts about the efficacy 
of the current sanctions and the prospects of their being kept 
in place and made effective, I suspect you will come to the 
following 10 conclusions, which I urge you to consider.
    First, there is no reason to believe that a continuation of 
the sanctions will drive Saddam Hussein from power in Iraq, or 
that they will be effective in eliminating his relentless 
pursuit of weapons of mass destruction.
    Second, the pressure to relax sanctions, which has already 
pushed to more than $10 billion per year the amount of revenue 
Iraq is allowed to receive from the sale of oil, will not 
subside and will almost certainly increase.
    Third, the French, Russians, and others will continue to 
agitate for the further relaxation of sanctions and the United 
States will almost certainly make further concessions in this 
regard.
    Fourth, there are already significant violations of the 
sanctions, and these can be expected to continue and even 
increase. The United Nations is hopelessly ill-equipped to 
monitor and enforce a strict sanctions regime.
    Fifth, Saddam's exploitation of the health and hunger issue 
has created the impression that sanctions and not Saddam's 
manipulation of the humanitarian food and medicine programs are 
the cause of mass suffering and ill-health in Iraq.
    Sixth, no one in the region--no one in the region believes 
that the United States has or will soon adopt a policy that 
could be effective in bringing Saddam down. The result was a 
collapse of the support for the United States when it blustered 
about getting tough with Saddam, and an inexorable drift away 
from the U.S. and toward Saddam.
    Seventh, when the sanctions have diminished, as they 
inevitably will, when they have been eroded by circumvention, 
relaxation, and delegitimization, Saddam's triumph will be 
complete and he will become the dominant political force in the 
Gulf region, with disastrous consequences for the United States 
and its allies.
    Eighth, Saddam's eventual political victory will be 
followed by a restoration of his military power.
    Ninth, only a policy that is openly based on the need to 
eliminate Saddam Hussein's regime has any hope of attracting 
sufficient support in the region to succeed.
    And finally, tenth, without legislation and other pressure 
on the administration, there will be no change in current 
policy. Previous congressional initiatives will be sidelined or 
ignored, and irreparable damage will be done to the position of 
the United States in the region and the world.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Perle follows:]
                  Prepared Statement of Richard Perle
    The Committee has convened this hearing to examine the question 
``Iraq: are sanctions collapsing?'' You will hear at least three 
perspectives on this issue this morning, probably more.
    I can give you mine with some efficiency: the sanctions regime is 
indeed collapsing, along with American policy toward Iraq. In fact, 
there is little to distinguish the Iraq sanctions from American policy 
since American policy is nothing more than the desperate embrace of 
sanctions of diminishing effectiveness punctuated by occasional 
whining, frequent bluster, political retreat and military paralysis. 
What the Administration calls a policy of containment has become an 
embarrassment as our friends and allies in the region and elsewhere 
ignore our reckless imprecations and reposition themselves for Saddam's 
triumph over the United States.
    More than six years after his defeat in Desert Storm, Saddam 
Hussein is outsmarting, outmaneuvering and outflanking what may be the 
weakest foreign policy team in any American administration in the 
second half of the century. The coalition once arrayed against Saddam 
is in disarray, marking a stunning reversal of the position of 
leadership occupied by the United States just six years ago.
    Ambassador Pickering will undoubtedly tell you everything is fine, 
that American diplomacy in the Gulf is determined and effective, that 
we have been and will continue to be successful in ``containing'' 
Saddam.
    But everything isn't fine; American diplomacy in the Gulf is weak 
and ineffective; we have been failing to contain Saddam politically; 
and he is getting stronger as American policy becomes manifestly 
weaker. The United States, mass-marketer to the world, is losing a 
propaganda war with Saddam Hussein, mass-murderer of his own citizens, 
over the issue of humanitarian concern. With much of the world 
believing that Iraqi babies are starving because of U.S. policies 
rather than the policies of Saddam Hussein, we are facing a political-
diplomatic defeat of historic significance in the Gulf and the 
Administration, bereft of ideas, energy or imagination, is doing 
nothing to stop it.
    You will hear from others, perhaps in classified meetings as well 
as this one, about violations of the existing sanctions against Iraq. I 
am sure that even the CIA, which has a nearly unbroken record of 
failure in assessing, understanding and operating in the Gulf, will 
report how Iraqi oil is loaded on barges and shipped to UAE waters 
where, after appropriate fees have been collected by Iran, the cash 
flows back to Saddam. You will certainly hear about how enough South 
Korean four wheel drive vehicles to equip two Republican Guard brigades 
made it easily through the barriers erected to enforce the current 
sanctions-barriers, by the way, based on 151 United Nations inspectors 
overseeing a country of 22 million people. The Committees will learn 
how Saddam controls the ration cards that tighten his grip on a hapless 
Iraqi people as they queue up to receive humanitarian food supplies 
purchased with ``oil for food'' dollars.
    After you have been briefed by the Administration and its experts, 
after you have examined the facts about the efficacy of the current 
sanctions and the prospects that they can be kept in place and made 
effective, I suspect you will come to the following 10 conclusions, 
which I urge you to consider:
    First, there no reason to believe that a continuation of the 
sanctions will drive Saddam Hussein from power in Iraq or that they 
will be effective in eliminating his relentless pursuit of weapons of 
mass destruction.
    Second, the pressure to relax the sanctions, which has already 
pushed to more than $10 billion per year the amount of revenue Iraq is 
allowed from the sale of oil, will not subside and will almost 
certainly increase.
    Third, the French, Russians and others will continue to agitate for 
the further relaxation of sanctions and the United states will almost 
certainly make further concessions in this regard.
    Fourth, there are already significant violations of the sanctions 
and these can be expected to continue and even increase. The United 
Nations is hopelessly ill-equipped to monitor and enforce a strict 
sanctions regime.
    Fifth, Saddam's exploitation of the health and hunger issue has 
created the impression that sanctions, and not Saddam's manipulation of 
the humanitarian food and medicine programs, is the cause of mass 
suffering and ill health in Iraq.
    Sixth, No one in the region believes that the United States has or 
will soon adopt a policy that could be effective in bringing Saddam 
down. The result was a collapse of support for the United States when 
it blustered about getting tough with Saddam-and an inexorable drift 
away from the U.S. and toward Saddam.
    Seventh, When the sanctions have diminished, as they inevitably 
will, when they have been eroded by circumvention, relaxation and de-
legitimization, Saddam's triumph will be complete and he will become 
the predominant political force in the Gulf region with disastrous 
consequences for the United States and its allies.
    Eighth, Saddam's eventual political victory will be followed by a 
restoration of his military power.
    Ninth, only a policy that is openly based on the need to eliminate 
the Saddam Hussein regime has any hope of attracting sufficient support 
in the region to succeed.
    Tenth, without legislation and other pressure on the Administration 
there will be no change in current policy, previous Congressional 
initiatives will be sidelined or ignored and irreparable damage will be 
done to the position of the United States in the region and the world.

    Chairman Murkowski. Thank you very much for those very 
sobering points. I would defer questions until we finish the 
panel, with the agreement of Senator Robb, and call on David 
Kay, vice president and director of the Center for 
Counterterrorism. Please proceed, Dr. Kay.

STATEMENT OF DR. DAVID KAY, VICE PRESIDENT AND DIRECTOR OF THE 
 CENTER FOR COUNTERTERRORISM, SAIC, AND FORMER UNSCOM NUCLEAR 
                     INSPECTOR, MCLEAN, VA

    Dr. Kay. Thank you, Mr. Chairman, and I will submit my full 
paper for the record with your indulgence, and only concentrate 
on that part of the paper that deals with the effectiveness of 
sanctions and inspections. I would say, however, that I quite 
agree with you, Mr. Chairman, and Senator Hagel, that any long-
term approach to Iraq has got to be focused on the political 
issue of the survival and the ultimate removal of Saddam 
Hussein.
    The only second comment I would like to preface is, and 
echoing the committee's earlier words to Tom Pickering, 
Ambassador Pickering played a pivotal role in American 
diplomacy toward the Gulf, as well as my own personal career.
    When I was leading inspections in Iraq after the war, and I 
looked back to Washington and New York, I could have no better 
friend nor wiser counselor than ambassador Tom Pickering, who 
led and in many ways formed the coalition that supported 
American entry in the Gulf, and whatever I have to say in no 
way diminishes my respect for Ambassador Pickering as a 
diplomat and a wise and, I must say, ardent defender of 
American foreign policy.
    There is no reason today to believe that diffusing the 
crisis in February and March with Iraq, however, equates to any 
long-term solution to Iraq led by Saddam and Iraq armed with 
WMD weapons.
    Indeed, I think, and I applaud the committee for its work 
today, the start of any sensible long-term approach to Iraq is 
to realize that UNSCOM's arms inspections are sliding toward 
irrelevance in coping with the puzzle of how we in fact cope 
with an enduring Saddam and efforts to expand and protect his 
capacity of weapons of mass destruction.
    We started in 1991 with four real assumptions about Saddam, 
and they have all turned out to be false, and in fact I think 
that is why the committee and U.S. foreign policy is where it 
is today.
    We believed that Saddam would not continue to rule Iraq 
after the tragedy of his invasion of Kuwait and his expulsion 
as a result of the Gulf War.
    We believed--and it is hard to imagine this today, the 
extent of this, but we really believed that Iraq's WMD capacity 
was limited, and not indigenous, and I will just give you an 
example. Of the three sites struck during the Gulf War believed 
to be Saddam's total biological weapons capacity production 
sites, not a single one was active at the time of the war. They 
had moved on to other sites.
    Of the 25 sites the inspectors found in his nuclear 
program, only six had been struck by the end of the war--struck 
from the air by the end of the war. In other words, we did not 
know, on balance, of over 18 sites that existed, and I could go 
on.
    We believed that a post Saddam regime in Iraq would 
surrender those weapons of mass destruction, and finally, we 
believed, once those weapons were surrendered to the 
inspectors, the inspectors could destroy, remove, or render 
harmless those weapons.
    Fundamentally, all of these assumptions have turned out to 
be false, and that is why we are where we are today, 7 years 
later.
    You know, it is remarkable, the Bush administration had 
every reason from an American perspective to believe that no 
regime could survive the disastrous policy that Saddam had led 
his country into, and that is true for a democratic regime, but 
it stands as another stark reminder of the dangers of 
attempting to understand and predict foreign societies from our 
own values.
    As I wrote those words this weekend, I had echoing in my 
mind the statements of the last 2 weeks of the administration 
as it looked at in sharp abhorrence at how could the Indians 
take their country down a road of nuclear armament, and how 
could they lie to us about their doing it.
    We seem to be condemned to learn, every 2 to 3 years, that 
other regimes have different sets of values, different cultural 
mores, and we suffer if we believe they are like us.
    Saddam's Iraq was and is a fierce totalitarian regime. He 
rules by the coercive application of power against his own 
citizens, and will not tumble through the force of his own 
people.
    If any Iraqi were to be so foolish as to behave like an 
Indonesian, he would not be today sitting in power in 
Indonesia, as in fact the Indonesian students have really 
removed a regime from power. It would be--and there is historic 
precedent. This is not a matter of theory. The Iraqi would be 
dead.
    What is much less well understood, but I think what is 
really key to what you are examining today, is the impact that 
we, the inspectors, made on the gigantic scope and indigenous 
nature of Iraq's weapons of mass destruction program. Over more 
than a decade, Iraq had spent $40 billion on its nuclear, 
chemical, biological, and missile program. There were more than 
40,000 Iraqis in that program.
    The Iraqis' weapons of mass destruction program by the late 
1980's had become not a foreign program, and that is not to say 
that there was not western technology that was key to that 
program, but by the time we got to the 1980's, that was an 
Iraqi program. They know the secrets of how to produce 
chemical, biological, nuclear, and missile programs. They had 
mastered the production elements of them.
    The essence of where we found ourselves by the end of the 
first year of inspections is the realization that Iraq was not 
Libya. Iraq was very much like post Versailles Germany at the 
end of the first world war. That is, sanctions and inspections 
would lose their effectiveness over time because, indeed, what 
was needed was less money than the freedom to pursue, in a 
clandestine way, secrets that the Iraqis had learned and did 
not need foreign support for.
    Just given the discussion in the last hour-and-a-half with 
Ambassador Pickering, I would like to call to the committee's 
mind what I know Ambassador Pickering knows is one of the 
discoveries we made very early on in the Iraqi inspections was 
that the cover name for the Iraqi nuclear weapons program was 
PC3, petrochemical project 3.
    Now, there was a legitimate PC1, a legitimate PC2, and a 
legitimate PC4. It was masked in the very nature of the dual 
use industries in Iraq, and it was masked to fool the West. I 
think you are seeing, as sanctions erode, as Iraq gains the 
right to impact and enhance its own petroleum industry, exactly 
that same process opening up again to Iraq.
    The capability to produce weapons of mass destruction in 
Iraq cannot be eliminated by eliminating weapons factories. We 
can delay, we may limit in scope, but in essence, the key to 
Iraq's ability to produce weapons of mass destruction is their 
own technical talent, and none of us know how to eliminate 
that.
    Sanctions are useful as a means of limiting the scope of 
that program, the freedom to maneuver it, but in essence, in 
Iraq we really face a political problem that can only be 
addressed by removing Saddam Hussein from power.
    But let me say a few things about the erosion of both 
sanctions and inspections.
    Chairman Murkowski. I wonder if you could summarize the 
balance?
    Dr. Kay. I will summarize it very quickly. The crisis of 
the last few months, beginning in November and December of last 
year and supposedly ending in February, was formulated as a 
crisis of inspection rights and meeting unconditional access to 
sites. Just as sanctions are a tool and not a policy, 
unconditional access is a tool of inspection and not an end in 
itself.
    What we have ended up with, and in fact the committee has 
heard already the words of Ambassador Butler, we have ended up 
in a situation of controlled access masquerading as 
unrestricted access, but finding no weapons.
    In fact, if you read the report given by the chief 
inspector after the last round of inspections, it was that this 
was a visit. This was not an inspection. The Iraqis had had 
more than 4 months to clean up the sites. We expected to find 
nothing, and we found nothing.
    So in essence we are the point, 7 years later, of Iraq's 
weapons of mass destruction program, the key kernel of it 
technical ability being intact, and all that is lacking is the 
opportunity to gain money and the irony is that it takes a lot 
less money today than it did when Saddam embarked upon this 
program to launch that.
    Very quickly, Senator, that is the essence of my statement.
    [The prepared statement of Dr. Kay follows:]
                 Prepared Statement of David A. Kay \1\
---------------------------------------------------------------------------
    \1\ David A. Kay led for the International Atomic Energy Agency and 
UNSCOM, three arms inspection missions as chief nuclear weapons 
inspector in Iraq during 1991-92. Now a Corporate vice president with 
San Diego-headquartered Science Applications International Corp., he is 
based in McLean, Va. The views expressed here are entirely his own and 
do not represent the views of SAIC.
---------------------------------------------------------------------------
    The Kofi Annan brokered agreement of February removed, at least 
temporarily, Iraq from the headlines and talk shows. There is no 
reason, however, to believe that defusing a crisis over the inspection 
rights of UNSCOM equates to a tong term solution to an Iraq led by 
Saddam and armed with WMD. Indeed the start of any sensible long-term 
approach to Iraq is to realize that the UNSCOM arms inspections are 
sliding toward irrelevance in coping with the puzzle of an enduring 
Saddam and his efforts to protect and expand his capacity to produce 
weapons of mass destruction.
    UNSCOM's efforts to eliminate Saddam's WMD capacity were based on 
four assumptions, all of which have turned out to be false. These were:

(i) Saddam's rule would not survive the disasters suffered by Iraq as a 
        result of its invasion of Kuwait;
(ii) Iraq's WMD capabilities were not extensive nor significantly 
        indigenous;
(iii) a post-Saddam Iraq would declare to UNSCOM all of Iraq's WMD 
        capabilities;
(iv) UNSCOM would be able to ``destroy, remove or render harmless'' 
        Iraq's WMD capabilities leaving an Iraq that would not have WMD 
        capability as an enduring legacy.

    The reasoning of Bush Administration officials that no regime could 
survive a disaster as compelling as Iraq's defeat in the Gulf War was 
no doubt true for a democratic system. Saddam's endurance, however, 
stands as yet another stark reminder of the dangers of attempting to 
understand the world on the basis solely of our own values and 
experience. Saddam's Iraq was and is a fierce, totalitarian 
dictatorship that can survive as long as it maintains coercive power 
over its citizens. Once Saddam's survival became a fact then all hope 
of his voluntarily yielding up the very weapons that allow him to hope 
to dominate the region was lost.
    What is much less well understood is the impact that the discovery 
of the gigantic scope and indigenous nature of Saddam's weapons program 
had on the prospects of being able to eliminate this program by 
inspection alone. We now know that the Iraqi efforts to build an 
arsenal of weapons of mass destruction:

  <bullet> spanned a decade;
  <bullet> cost more than $20 Billion;
  <bullet> involved more than 40,000 Iraqis and succeed in mastering 
        all the technical and most of the productions steps necessary 
        to acquire a devil's armory of nuclear, chemical and biological 
        weapons as well as the missiles necessary to deliver them over 
        vast distances.

    Iraq's weapons programs benefited greatly from access to Western 
technology and material, however, by the time of the invasion of Kuwait 
this program had become thoroughly indigenous and for reasons of both 
deception and efficiency was often embedded in civilian, dual-use 
industries. The over-all project code for the Iraqi nuclear weapons 
program was PC-3 Petrochemical Project 3.
    The capability to produce weapons of mass destruction cannot be 
eliminated by simply destroying ``weapons'' facilities. The weapons 
secrets are now Iraqi secrets well understood by a large stratum of 
Iraq's technical elite, and the production capabilities necessary to 
turn these ``secrets'' into weapons are part and parcel of the domestic 
infrastructure of Iraq which will survive even the most draconian of 
sanctions regimes. Simply put, Iraq is not Libya, but very much like 
post-Versailles Germany in terms of its ability to maintain a weapons 
capability in the teeth of international inspections. Once sanctions 
are eased, or ended, that capability can be expected to become quickly 
a reality.
    For seven years, US Iraqi policy has focused essentially on only 
two related issues, maintaining sanctions and keeping UNSCOM's 
inspections going. The hope was that inspections and sanctions would 
keep Saddam's WMD program in check until somehow Saddam would 
disappear. While sanctions and inspections still have considerable 
value, the Annan agreement makes clear that they no longer can define 
US policy and, in fact concentrating on them has masked a series of 
challenges that the US must now face.
    The most recent crisis with Iraq over sanctions began in October 
1997 and ended with an agreement brokered by the UN Secretary General 
in February-March 1998. This most recent dispute with Iraq has been 
widely portrayed as over the right of the inspectors to immediate, 
unconditional and unrestricted access in their search for Iraq's 
remaining weapons of mass destruction. This formulation of the crisis--
and it is one that Iraq has succeeded in be widely accepted--is 
fundamentally wrong. Immediate, unconditional and unrestricted access 
has never been more than a means--important, but still a means--to 
achieve the primary objective of the UN inspectors which is defined as 
the ``destruction, removal or rendering harmless'' of Iraq's prohibited 
weapons of mass destruction and their means of production.
    The consequence of this misconception can be seen in the 
contrasting manner in which the diplomatic nannies that the Secretary 
General and Iraq agreed must accompany the inspectors to designated 
sensitive sites reported on the first series of visits as opposed to 
the report prepared by the inspectors that the diplomats accompanied.

  <bullet> The diplomats' report \2\ concerns itself entirely with 
        issues of access and resolving disputes that occurred over 
        access. The tone is positive and is well reflected in the 
        statement by the President of the Security Council when the 
        Council on 14 May 1998 reviewed the report. The President of 
        the Security Council, on behalf of the Council, welcomes the 
        improved access provided to the Special Commission and the IAEA 
        by the Government of Iraq following the signature of the 
        Memorandum of Understanding by the Deputy Prime Minister of 
        Iraq and the Secretary General on 23 February' and its 
        subsequent approval by the Council.
---------------------------------------------------------------------------
    \2\ United Nations S/1998/326.
---------------------------------------------------------------------------
  <bullet> The head of the inspectors, however, struck a quite 
        different tone. For example, ``The initial entry to the sites 
        had limited objectives, which were achieved. It is important to 
        emphasize that this mission was not a search-type mission, nor 
        was it no-notice. Iraq had over a month to make whatever 
        preparations it desired... The mission was not intended to be a 
        search for prohibited material and none was found. In fact, 
        there was very little equipment, documentation or other 
        material in the sites at all. It was clearly apparent that all 
        sites had undergone extensive evacuation.... Another potential 
        problem surfaced regarding the procedures and stated 
        requirements for the presence of senior diplomats at specific 
        locations. Iraq stated that UNSCOM and IAEA staff could not 
        enter buildings without a diplomat being present. This did not 
        pose a problem during the course of this mission since many 
        diplomats were present and it was not a surprise visit. 
        However, it must be noted that the procedures do not contain 
        any such requirement and in fact allow for the division of the 
        team into sub-teams at the discretion of the Head of the Team 
        of Experts. There is no stated requirement for a senior 
        diplomat to be present in each sub-team. In the future this may 
        be problematic since no-notice visits require quick movement 
        into the location often by multiple sub-teams. Assuring the 
        presence of several diplomats at all locations will inhibit the 
        possibility of surprise, since non-Baghdad-based senior 
        diplomats may then be required.''
  <bullet> The Chairman of UNSCOM, Ambassador Butler, summed up best 
        the consequence of focusing on access and forgetting the reason 
        that access is important when he submitted in April his latest 
        semi-annual report on the inspections. ``...as is evident in 
        the disarmament section of this report, a major consequence of 
        the four-month crisis authored by Iraq has been that, in 
        contrast with the prior reporting period, virtually no progress 
        in verifying disarmament has been able to be reported. If this 
        is what Iraq intended by the crisis, then, in large measure, it 
        could be said to have been successful. Iraq's heightened policy 
        of disarmament by declaration, no matter how vigorously pushed 
        or stridently voiced, cannot remove the need for verification 
        as the key means through which the credibility of its claim can 
        be established.''
    Unfortunately, Ambassador Butler is correct. Iraq has been 
successful. The focus now has shifted to procedure and process. The 
real aim of the inspections, the elimination of Iraq's WMD weapons and 
production capacity and the establishment of a long-term monitoring 
process is sliding away in the face of resolute Iraqi defiance and the 
desire of the Russians and the French for short-term economic gain. We 
should also credit a successful Iraqi propaganda campaign that has gone 
unanswered and has convinced many in the Gulf and in our own country 
that the US is responsible for keeping on economic sanctions that have 
devastated Iraq women and children.
    The major problems that now must be confronted include:

    The security structure that Secretary Baker crafted to respond to 
Iraq's invasion of Kuwait is no longer viable. Major states in the 
region, certainly including Egypt, Saudi Arabia and the UAE, are no 
longer willing to let an automatic anti-Saddam reflex define their 
policy in the Gulf. Even states, such as Kuwait and Bahrain, which are 
much more dependent upon the US for their security, are resisting US 
leadership when it threatens military confrontation. Equally important, 
Iran is no longer the marginalized state that it was in 1990-91 and has 
learned to skillfully play each crisis to benefit its long-term goal of 
removing US influence from the Gulf.
    We are left with ``allies'' that lack sufficient military power to 
stand up to a rearmed Iraq, and that are unwilling to provide the US 
with the political support and operational bases that would allow the 
US to deal with Iraq even in its present weakened state. This same 
splintering of alliance ties can be seen in the non-regional allies 
that were a key part of Gulf coalition structure. The French are no 
longer willing partners, and the Russians can no longer be coerced or 
bribed into silent cooperation.
    The US has failed to convince its allies of the dangers to 
themselves of the proliferation of weapons of mass destruction in the 
tinderbox Middle East. Also we have not yet equipped our own military 
forces to be able to fight and win when faced with such a threat at 
costs and risks that appear tolerable to our own citizens and political 
leaders. If there were ever a psychological campaign that either was 
not fought or misfired, it has been the US effort to make the states of 
the Gulf and our European and Asian allies understand how much more 
dangerous the future is about to become as Iraq rebuilds its nuclear, 
chemical and biological weapons, the Iranians further accelerate their 
own efforts and the rest of the region scrambles for political and 
military protection.
    The US military build up in the Gulf between October 1997 and 
February 1998 should send shockwaves through both policy makers and 
Congressional leaders who though that some important lessons had been 
learned as a result of the Gulf War. First, the build up took almost 
five months to reach a force level that military commanders seem to 
think was adequate to achieve an admittedly shifting set of political 
objectives. This was almost as long as it took the US to deploy a much 
larger force to meet the invasion of Kuwait.
    True to the warnings of many who said we should never again give an 
opponent that much time to counter our force deployment, Saddam used 
the time to hammer our forces--not with Scuds and chemical weapons but 
with a political campaign that was probably even more effective. 
Second, the US forces that came to do battle brought smarter weapons, 
but none that their commanders seemed to be confident could find or 
kill chemical and biological weapons without risking unacceptable 
damage to civilians in the region. It is hard to escape the conclusion 
that the much-touted US counterproliferation forces are not yet ready 
to meet the standards that they must if they are to be a real threat to 
proliferators.
    If these are the major problems, what choices are we left with? Few 
and mostly bad in the short run is the simple answer. The easy 
nostrums--support the opposition, containment as we did with the 
Soviets, or even Annan's ``I can do business with Saddam''--seem 
expensive, risky and, at best, only partial answers.
    The best hope of the opposition was in the chaos at the end of the 
Gulf War. This opportunity, however, was lost when the US decided to 
stand aside and let Saddam freely slaughter many brave Iraqis. In the 
seven intervening years US policy toward the opposition has grown to 
resemble nothing so much as the mating ritual of the female Back 
Widow--promising but quickly lethal to the male. I do not believe that 
it is true that supporting forces of democratic change is something 
that Americans are genetically unable to do. It is clear, however, that 
we generally are so inept at it that it is likely to deplete the gene 
pool of promising opponents to tyrants before we are successful. It is 
certainly a policy worth another try, if you can find any of Saddam's 
opponents willing to run the risk of having us support them, but it is 
not a policy that will offer short term successes.
    Containment has a nice ring and the virtue of a clear success in 
the fall of the Soviet Union. On the other hand, one can only despair 
that those who urge containment of Saddam as an appropriate policy have 
not examined the preconditions of the Cold War case to see if they 
exist in the Gulf. The US maintained for 40 years more than a million 
troops in Europe as part of its effort to contain the Soviets and 
invested vast resources in the social, political and economic 
reconstruction of Europe into a bastion of democratic values. In the 
Gulf there is no simple overriding fear of Saddam that will dominate 
all politics the way the Soviet threat did. For example, the Iranians 
who have every reason to fear the Iraqis will not see a US presence 
that contains Saddam as serving their interest. Many holders of 
traditional tribal societal and fundamentalist religious values will 
worry more about the threat of democratic and modern influences that 
flow from US presence than they will the threat from Iraq. Some of the 
states in the region are more fearful of a rapid democratic 
modernization of their societies than they are of Saddam.
    Political change in Iraq holds the only hope for eliminating Iraq's 
capacity for producing weapons of mass destruction and the equally 
dangerous arms race that is about to ignite across the Gulf. Clearly 
Saddam needs to be held in check, that is contained, while the forces 
of political change are given a chance to work. But a policy that is 
solely one of containment is more likely to ignite the fires of anti-
Americanism, undermine our allies and embolden Iraq, Iran and Russia 
than it is to accelerate political change. The various opposition 
groups inside and outside Iraq clearly have a role in accelerating 
political change, although I doubt that this will be greatly hastened 
by covert assistance programs.
    Political change seems most likely to be accelerated by four 
factors:

  <bullet> First, the external world must make it clear that Saddam 
        will not be part of the solution. Annan is wrong. We must 
        clearly insist that we cannot ``do business'' with Saddam. 
        There should be no ``ifs, ands, buts'' or escape clauses of 
        deathbed conversions to this policy. If we are less than 
        committed to the removal of Saddam as a precondition for the 
        reintegration of Iraq into the global system we will have 
        Saddam and destroy all opposition groups.
  <bullet> Second, a better definition is needed of what post-Saddam 
        Iraq can expect in terms of reconstruction and reintegration 
        into the world. Iraq has become a land of sorrow and little 
        hope. Saddam bears the ultimate responsibility for this fate, 
        but we all share a failure to hold up a compelling vision of 
        what the future can be for the Iraqi people.
  <bullet> Third, the US must abandon the myth that it helped create 
        that there can be a stable Gulf policy apart from a stable 
        Middle East. This myth served US interests well during the Cold 
        War, but we forget that it was never more than a useful myth. 
        Unless and until the security needs of Israel and its neighbors 
        can be reconciled and jointly shared, long-term stability in 
        the Gulf will be an unattainable dream. This is not to say that 
        the Gulf does not have many problems of its own that require 
        resolution, but as long as Arab-Israeli politics remains 
        characterized by daily violence and deep distrust, stability in 
        the Gulf will never be possible.
  <bullet> Fourth, the US military needs to drive to rapid completion 
        the restructuring of its forces and doctrine. In situations 
        that look like neither the Cold War of Central Europe nor the 
        idealized situation we found in Desert Storm, we must be able 
        to credibly and quickly bring to bear decisive military force. 
        Diplomacy is not likely to be strengthened by a military force 
        and deployment structure that gives the opponent time to raise 
        questions about our own adequacy, even more so when those 
        questions start to resonate at home.
  <bullet> Fifth, U.S. intelligence--and more broadly all of the 
        institutions of U.S. national security and foreign policy--must 
        rediscover that oldest tool of true covert operations, 
        information operations that aim to shape the perceptions of 
        opponents. As in most things, it is fair to say that the 
        Chinese first did it and the Greeks first got credit for it, 
        but information operations should be a technique at which 
        Americans excel. We apparently do when it comes to domestic 
        politics and consumer marketing. Our record, however, in 
        foreign operations--and never more so than in Iraq after the 
        Gulf War--is sadly wanting. I commend, and strongly urge that 
        everyone carefully read, the recent comments of Representative 
        Porter J. Goss, Chairman of House intelligence committee, on 
        the importance of information operations to the revitalization 
        of U.S. intelligence.
    Iraq is of a class of problems where all the easy answers seem to 
have been in the past and all the near terms options are not answers. 
But that is the future in the Middle East. If it is of any comfort, we 
should all acknowledge there were never any easy answers in the past.

    Chairman Murkowski. Thank you very much, Dr. Kay. You have 
certainly highlighted some statements that are provoking, 
relative to parallels between Iraq's posture and that of post 
Versailles Germany.
    Dr. Pollack. He is a Persian Gulf analyst with the 
Washington Institute for Near East Policy. We welcome you, and 
ask you to proceed.

STATEMENT OF DR. KEN POLLACK, PERSIAN GULF ANALYST, WASHINGTON 
         INSTITUTE FOR NEAR EAST POLICY, WASHINGTON, DC

    Dr. Pollack. I, too, will submit more extensive comments 
for the record----
    Chairman Murkowski. Without objection.
    Dr. Pollack. [continuing]. and present only an abbreviated 
version.
    Mr. Chairman, the obvious problem that the United States 
faces today with regard to Iraq is that we have no perfect 
option toward Iraq. There are policies we can adopt that would 
solve the problems of Saddam Hussein forever, but they come at 
a price we may be loath to pay. There are policies we could 
adopt that would come at an acceptable price, but they offer no 
permanent solution, at least not in the short term.
    Indeed, it is this conundrum that drove us to containment 
of Iraq after the Gulf War just as similar conundrums drove us 
to accept the containment of the Soviet Union, of Communist 
China, of North Korea, and of Cuba, in their time.
    I, too, share popular frustrations with containment of 
Iraq. I, too, would like to find ways to get rid of Saddam 
Hussein quickly, but I am forced to accept the logic that 
containment is the best course of action toward Iraq. For 
better or worse, containment is our only reasonable course of 
action toward Iraq at present. Indeed, even a more aggressive 
policy toward Iraq would have to build off the base of 
containment.
    Unless we choose to give up on Iraq and accommodate Saddam, 
or else invade the country, any policy toward Iraq will simply 
be a variant of containment.
    At this point in time, I think we have to rule out either 
accommodating Saddam or invading Iraq. Everything we are left 
with is a variant of containment in some way or another. Even 
the idea of supporting the Iraqi opposition against Saddam is 
just going to be an adjunct of a containment policy rather than 
an alternative to it.
    It would take a tremendous effort on the part of the United 
States, including hundreds of millions of dollars and several 
years, to reform, reorganize, rearm, and retrain the Iraqi 
opposition to the point where it could return to Iraq as a 
credible opposition. During the years it would require to 
support an Iraqi opposition capable of effective operations 
inside Iraq the United States would still have to keep Saddam 
weak and isolated through containment.
    Thus, Mr. Chairman, we would return inevitably to 
containment at all times, not because it is the best policy, 
but because it is the least worst option we have available to 
us.
    Nevertheless, while it is clear that the United States will 
have to rely on some form of containment, it is equally clear 
that we cannot continue with business as usual. We are reaching 
a point where we must act to restore containment, to bolster it 
so that it can last over the long term.
    Containment is under attack from a variety of directions, 
and these attacks are doing real damage. We are already being 
forced to make concessions in some areas of the containment 
regime in order to hold the line on others. In the future, to 
make containment last we will have to make additional 
tradeoffs.
    The question that the United States must answer is, what 
kind of a containment regime do we want to have, and what 
tradeoffs are we willing to make?
    Essentially, there are two different sets of tradeoffs we 
could make to bolster containment. On the one hand, we could 
make tradeoffs among our various foreign policy agendas. We 
could make concessions on some foreign policy issues in hope of 
securing greater cooperation from our allies on Iraq.
    On the other hand, we could make tradeoffs within our Iraq 
policy. We could make concessions on some aspects of the 
sanctions and inspections regimes in order to lock in other, 
more important mechanisms for the long-term.
    The former option I call broad containment. The goal of 
this approach would be to preserve the current sanctions 
against Iraq intact and in toto. There is real reason to try to 
preserve containment as it currently exists.
    Simply put, the containment of Iraq we have held in place 
over the last 7 years is the most far-reaching and effective 
the modern world has seen. Bad-mouth it though we may, fret 
over Saddam's noncompliance though we may, the sanctions and 
inspections regimes established after Iraq's invasion of Kuwait 
have been remarkably successful.
    Iraq's military continues to wither. UNSCOM has obliterated 
vast quantities of Iraq's weapons of mass destruction and, 
ultimately, Baghdad remains isolated. If we can find a way to 
keep this policy intact and hold it together over the long-
term, we should do so.
    Unfortunately, it is the very strength and 
comprehensiveness of broad containment that has created our 
problem. It is the effectiveness of this containment regime 
that provokes Baghdad to fight it so ferociously, and that 
causes France, Russia, China, and so many other States to 
increasingly oppose it. Consequently, if we are going to keep 
containment this strong and this comprehensive, we will have to 
be willing to make very significant sacrifices on other issues 
to hold it together.
    Ultimately, Iraq is not a primary foreign policy concern 
for France, nor is it for Russia, nor for China, or Egypt, or 
most countries in the world. For most of the world, Iraq is 
less important to them than it is to the United States.
    On the other hand, there are policy issues that matter far 
more to these other countries than does Iraq. Consequently, if 
the United States is going to hold on to broad containment of 
Iraq, it will have to be willing to make concessions to other 
States on foreign policy issues more important to them than 
Iraq.
    If we are unwilling to make sacrifices on other foreign 
policy issues to try to persuade other nations to be more 
cooperative on Iraq, the alternative is to make concessions 
within the containment regime itself.
    The option I will call narrow containment would tradeoff 
the more comprehensive aspects of the sanctions currently in 
existence in return for a new set of international agreements 
locking in the most important aspects of containment over the 
long term.
    There are four areas that are crucial to the continued 
containment of Iraq over the long-term, limiting Iraq's 
conventional military, preventing Iraq from acquiring weapons 
of mass destruction, maintaining Iraq's diplomatic isolation, 
and monitoring Iraqi spending.
    A policy of narrow containment would envision trading off 
other aspects of the current containment regime in return for 
locking in regulations that will allow containment of Iraq to 
continue in these four areas. It would envision new 
international agreements reaffirming the prohibition on Iraqi 
weapons of mass destruction, banning the sale of offensive 
conventional weaponry to Iraq, and reaffirming the inviability 
of Iraq's international borders.
    Now, depending on what the international community would be 
able to agree to under a policy of narrow containment, the 
United States would have to be prepared to make concessions on 
Iraqi imports and exports other than arms and dual use 
technology, frozen assets, the no-fly zones, the no-drive 
zones, flight bans, Iraqi compensation to its victims, and even 
the return of Kuwaiti property stolen during the Iraqi 
occupation of Kuwait.
    Mr. Chairman, to summarize and conclude, although we do not 
have any perfect options toward Iraq, we cannot afford not to 
choose among those we have. Because of the pressures on the 
current sanctions and inspections regime and because of the 
compromises we have already been forced to make in response to 
those pressures, simply muddling through, of which I am often a 
proponent, will not do.
    The United States has no choice but to employ some variant 
of containment, but we must decide which variant we will 
employ. We must develop a cohesive strategy to implement it, 
and we must devote all necessary attention and resources toward 
executing it.
    Our Iraq policy faces considerable challenges, but it is 
hardly dead. If we do not give it the attention and resources 
it requires, containment will continue to erode, and 1 day we 
could wake up with no choice but to either invade Iraq or 
accommodate Saddam.
    However, there is every reason to believe that containment 
can be reformed and made to last over the long term. We 
Americans do not like containment, but we happen to be very 
good at it. We contained the Soviet Union for 45 years, until 
it collapsed. We continue to contain both Cuba and North Korea 
with relatively little effort. All of these States were far 
more formidable adversaries than Iraq will ever be.
    Mr. Chairman, there is no reason we cannot continue to 
contain Iraq as we contain these other rogue States, as long as 
we make the effort to do so.
    [The prepared statement of Dr. Pollack follows:]
             Prepared Statement of Dr. Kenneth M. Pollack,
    It is an honor to appear before this committee to discuss the 
future of sanctions and U.S. policy toward Iraq.
    Mr. Chairman, the greatest problem that the United States faces 
today with regard to Iraq is that we have no perfect option. There are 
policies we could adopt that would solve the problem of Saddam Husayn 
forever, but they come at a price we are loathe to pay. There are 
polices that we could adopt that would come at an acceptable price, but 
they offer no permanent solution--at least not in the short term. 
Unfortunately, there are no policies that would allow us to solve the 
problem of Saddam Husayn in the foreseeable future and do so at a 
reasonable cost in lives and treasure.
    Indeed, it is this conundrum that drove us to containment of Iraq 
after the Gulf War, just as similar conundrums drove us to accept 
containment of the Soviet Union, Communist China, North Korea, and 
Cuba, in their time. Containment is a difficult policy for Americans to 
stomach. Not only because the United States is the most powerful nation 
the world has ever seen and it is enraging to believe that we cannot 
rid ourselves of this loathsome dictator with the flick of a finger, 
but because we as Americans like to solve our problems. We are an 
impatient people and a capable people: when we have a problem we solve 
it and we move on. Containment is an admission that we cannot find a 
quick solution to a difficult problem.
    I too share popular frustrations with containment. I too would like 
to find a way to get rid of Saddam Husayn. But I am forced to accept 
the logic that containment is our best course of action toward Iraq.
    Containment is our only reasonable course of action toward Iraq. 
Indeed, even a more aggressive policy toward Iraq would have to build 
off the base of containment: unless we choose to give up on Iraq or 
invade the country, any policy toward Iraq will simply be a variant of 
containment.

The Extreme Options Are Too Extreme
    There are essentially two alternatives to some form of containment. 
On the one hand, we could adopt the policy urged on us by our French 
allies and accommodate Saddam--or as they put it, ``learn to live with 
Saddam''. We could agree to a lifting of the sanctions, dismantle 
UNSCOM, attempt to use carrots to lure Iraq back into the family of 
nations, and rely on pure deterrence to prevent him from employing his 
conventional and non-conventional military power to threaten U.S. 
allies in the region.
    Mr. Chairman, we tried this approach in the 1980s and it failed. 
Miserably. I would like to believe that we learn from our mistakes, 
rather than repeat them. Saddam Husayn has demonstrated that his 
aspirations and idiosyncrasies make him uniquely threatening to the 
region. What is more, since the Gulf War, Saddam has concluded in a way 
he had not before that the United States is his implacable adversary 
and the greatest obstacle to his ambitions. No matter how accommodating 
the United States may be, if Saddam is freed from his bondage, he will 
work tirelessly against the U.S. in the Gulf, in the Middle East, and 
wherever he can throughout the world. As long as Saddam Husayn is in 
power in Iraq, we cannot forgive or forget.
    On the other hand, there are those who have argued for an outright 
American invasion of Iraq. Mr. Chairman, I do not dismiss the notion of 
an American invasion, because this is the only policy option that would 
be guaranteed to rid us of the problem of Saddam. However, I recognize 
that there are very serious costs which I do not believe the United 
States is yet willing to pay, and very serious risks for which I do not 
believe the United States yet has answers.
    There is no question that the United States military could conquer 
Iraq, destroy the Republican Guard, extirpate Iraq's weapons of mass 
destruction, and hunt down Saddam Husayn. But doing so will cost tens 
of billions of dollars, hundreds (perhaps thousands) of American lives, 
and tens of thousands of Iraqi lives. What's more there are several 
very important wild cards in the deck: if the Republican Guard decided 
to fight it out with us in Iraq's cities, casualties--both in terms of 
American servicemen and Iraqi civilians--could increase exponentially. 
Likewise, we would have to expect that with his back to the wall, 
Saddam would have little incentive to refrain from using his remaining 
arsenal of weapons of mass destruction either against U.S. forces or 
regional allies. Finally, perhaps the greatest problem we would face 
would be what to do with Iraq once we had conquered it. All of Iraq's 
neighbors have very different ideas about what a future Iraqi state 
should look like. Most of these ideas are in conflict with one another, 
few would accord with American desires to establish a representative 
democracy in Iraq, and all of Iraq's neighbors have demonstrated a 
capability and a willingness to meddle in Iraqi affairs and undermine 
U.S. efforts there. In short, we would undoubtedly win the war but we 
could easily lose the peace if we were to invade.
    At least for the moment, these are both bad options. Everything we 
are left with is a variant of containment in some way or another. But 
this does not mean that we are already doing the best we can. There are 
different versions of containment and important ways to reform the 
policy.

Supporting the Iraqi Opposition
    First, let me say a few words about supporting the Iraqi 
opposition.
    Many of the Iraq experts around town simply dismiss this idea 
altogether. I do not. I think there could be real benefits from such an 
approach. I firmly believe that a real opposition with real support 
from the United States would put real pressure on Saddam's regime.
    However, I also think we have to be realistic about the current 
limitations of the Iraqi opposition and the limits these failings place 
upon our policy. The Iraqi opposition is currently moribund. Whether 
you blame the Bush Administration, the Clinton administration, or the 
opposition leaders themselves for this state of affairs, the fact 
remains that the Iraqi opposition today is impotent. Its leadership is 
divided, it has no support inside Iraq--especially in the Sunni 
heartland, it has not displayed any ability to organize resistance to 
Saddam, and during its four years in northern Iraq it demonstrated 
neither military skill nor an ability to cajole meaningful numbers of 
Iraqi military personnel to defect to their cause. It would take a 
tremendous effort on the part of the United States, including hundreds 
of millions of dollars and several years, to reform, reorganize, rearm 
and retrain the Iraqi opposition to the point where it could return to 
Iraq as a credible opposition.
    This would hold true even with a massive commitment of U.S. air 
power to support the Iraqi opposition. There is simply no way around 
the necessary time and effort to get the Iraqi opposition to the point 
where it could be effective enough even to walk in and occupy charred 
fields cleared by American air power. To do otherwise would be to 
invite another Bay of Pigs.
    Consequently, even supporting the Iraqi opposition can only be 
seen, ultimately, as an adjunct to containment and not an alternative 
to it. During the years it would require to recruit, train and equip an 
Iraqi opposition capable of effective operations inside Iraq the United 
States will still have to keep Saddam weak and isolated through 
continued containment. Moreover, we must recognize that even after a 
viable opposition is up and running, the probability that Saddam will 
actually fall as a result of such an effort is low. Thus, the United 
States will still have to ensure an effective containment regime to 
guard against the very real risk, indeed the likelihood, that even a 
well-supported opposition will fail to remove him from power.
Reforming Containment
    Thus, Mr. Chairman, we return inevitably to the policy of 
containment. Not because it is the best policy, but because it is the 
``least-worst'' option available to us given what we hope to achieve 
and what we are willing to pay. Nevertheless, while it is clear that 
the United States will have to rely on some form of containment for the 
foreseeable future, it is equally clear that we cannot continue with 
business as usual.
    Containment is under attack from a variety of directions. What's 
more, these attacks are doing real damage. Over the last three years, 
the United States has been forced to give ground on a number of issues 
in the face of such pressure. The United States supported Resolutions 
986, and 1153 simply because we recognized that it was impossible to do 
otherwise. Although, one must give credit to the Administration for the 
ingenious approach embodied in the resolutions which make concessions 
on Iraqi exports while retaining control over Iraqi imports, we must 
still recognize that both resolutions entailed sacrificing part of the 
sanctions regime in the face of pressure from the international 
community. Similarly, our limited response to Saddam's attack on Irbil 
in 1996 and our willingness to accept Kofi Annan's compromise deal with 
Saddam in 1998 both speak to the great difficulty we now have finding 
states willing to support us on those occasions when it is necessary to 
use force to prevent or punish Iraqi defiance.
    Mr. Chairman, we are reaching a point where we must act to restore 
containment, to bolster it so that it can last over the long-term. We 
are already being forced to make concessions in some areas of the 
containment regime in order to hold the line on others. In the future, 
to make containment last, we will have to make additional trade-offs. 
The question that the United States must answer is what kind of a 
containment regime do we want to have and what trade-offs are we 
willing to make.
    Essentially, there are two different sets of trade-offs we could 
make to bolster containment. On the one hand, we could make trade-offs 
among our various foreign policy agendas: we could make concessions on 
other foreign policy issues in order to secure greater cooperation from 
our allies on Iraq. On the other hand, we could make trade-offs within 
our Iraq policy: we could make concessions on some aspects of the 
sanctions and inspections regimes in order to lock-in other, more 
important, mechanisms for the long-term.
    Broad Containment. The former option I call ``broad containment.'' 
The goal of this approach would be to preserve the current sanctions 
against Iraq intact and in toto. There is real reason to try to 
preserve containment as it currently exists. Simply put, the 
containment of Iraq we have held in place for the last seven years is 
the most far-reaching and effective the modern world has seen. Bad 
mouth it though we may, fret over Saddam's non-compliance though we 
may, the sanctions and inspections regimes established after Iraq's 
invasion of Kuwait have been remarkably successful: Iraq's military 
continues to whither, UNSCOM has obliterated vast quantities of Iraq's 
weapons of mass destruction, and ultimately, Bagdad remains 
diplomatically isolated. If we can find a way to keep this regime 
intact and hold it together over the long term, we should do so.
    Unfortunately, it is the very strength and comprehensiveness of 
broad containment that has created our problem. It is the effectiveness 
of this containment regime that causes Baghdad to fight it so 
ferociously and causes France, Russia, China, and so many other states 
to increasingly oppose it. Consequently, if we are going to keep 
containment this strong and this comprehensive, we will have to be 
willing to make very significant sacrifices on other issues to hold it 
together.
    Ultimately, Iraq is not a primary foreign policy concern for 
France. Nor is it for Russia, nor for China, or Egypt or most other 
countries. For most of the world, Iraq is less important to them than 
it is to the United States. On the other hand, there are policy issues 
that matter far more to these other countries than does Iraq. 
Consequently, if the United States is going to hold on to broad 
containment of Iraq it will have to be willing to make concessions to 
other states on foreign policy issues more important to them than Iraq. 
This could mean making concessions to Russia on NATO expansion, to 
China over trade issues, to France over Iran, and so on.
    Narrow Containment. If we are unwilling to make sacrifices on other 
foreign policy issues to try to persuade other nations to be more 
cooperative on Iraq, the alternative is to make concessions within the 
containment regime itself. The option I will call ``narrow 
containment'' would trade-off the more comprehensive aspects of the 
sanctions currently in existence in return for a new set of 
international agreements locking in the most important aspects of 
containment over the long term.
    There are four areas that are crucial to the continued containment 
of Iraq over the long-term:

  <bullet> Limiting Iraq's conventional military forces. Although 
        Iraq's WMD capability grabs the headlines, in the end, it has 
        been Iraq's ability to project conventional military power that 
        has proven the greatest destabilizing force in the Gulf region.
  <bullet> Preventing Iraq from acquiring weapons of mass destruction. 
        In particular, Iraqi possession of a nuclear weapon could have 
        catastrophic consequences.
  <bullet> Maintaining Iraq's diplomatic isolation. It is crucial that 
        even under a narrow containment regime, there be no illusion 
        that Saddam is free to act as he wants. Iraq and its neighbors 
        must always know that Iraq will live under the constant 
        scrutiny of the United States and the international community 
        as long as it is ruled by Saddam Husayn.
  <bullet> Monitoring Iraqi spending. Ultimately, the only way to be 
        sure that Saddam cannot rebuild a large conventional or WMD 
        arsenal is to continue to oversee Iraqi spending.

    A policy of narrow containment would envision trading off other 
aspects of the current containment regime in return for locking in 
regulations that will allow containment of Iraq to proceed long into 
the future in these four areas. It would envision new international 
agreements re-affirming the prohibition on Iraqi possession of WMD, 
banning the sale of offensive conventional weaponry to Iraq (offensive 
weaponry here defined as tanks, combat aircraft, attack helicopters, 
long-range artillery, and a number of other categories of weapons), and 
reaffirming the inviolability of Iraq's international borders. To see 
these enforced, the United States would seek, among other measures, a 
clear reaffirmation of: UNSCOM's charter and particularly its long-term 
monitoring mission; the UN escrow account for Iraqi revenues, as well 
as UN supervision of Iraqi imports; and Baghdad's renunciation of any 
use of force beyond Iraq's borders under any circumstances.
    Depending on what the international community would be willing to 
agree to, under a policy of narrow containment the United States would 
be prepared to make concessions on Iraqi imports and exports other than 
arms and dual-use technology, frozen Iraqi assets, the no-fly zones, 
the no-drive zone, the flight bans, Iraqi compensation to victims of 
its aggression, and even on the return of Kuwaiti property stolen 
during the Iraqi occupation of Kuwait.
    One of the problems we have today is that it is very hard to 
convince the average American, let alone the average Saudi or Egyptian, 
to support military action over the composition of UN inspection teams. 
A virtue of the narrow containment approach is that it would draw firm 
``red lines'' around those things which the entire international 
community recognizes as dangerous. Thus there would be fewer 
restrictions on Iraqi behavior, but those that remain would be much 
clearer and more defensible. After all, even the French and Russians 
agree both publicly and privately that Iraq cannot be allowed to rearm.
    The strength of narrow containment is that it uses as leverage 
those elements of the current containment regime which we are unlikely 
to be able to hold on to forever in order to strengthen our ability to 
hold on to that which really constrains Iraq. This last is a very 
important point: narrow containment is not a fall-back position from 
broad containment. If we allow broad containment to continue to 
deteriorate, we will lose the leverage we still possess to lock-in the 
most important restrictions on Iraq for the long-term. To be 
successful, narrow containment must be implemented in the near term, 
while we still have things to trade-off and still have time to secure 
international cooperation to lock-in revamped restrictions on Iraq for 
the long term.
Conclusions
    Mr. Chairman, although we do not have any perfect options toward 
Iraq, we cannot afford not to choose among those we have. Because of 
the pressures on the current containment regime, and because of the 
compromises we have been forced to make in response to those pressures, 
simply ``muddling through'' of which I am often a proponent will not 
do.
    The United States has no choice but to employ some variant of 
containment, either as a stand alone policy, or in conjunction with an 
effort to pressure the regime by supporting the Iraqi opposition. But 
we must decide which variant we will employ. We must develop a cohesive 
strategy to implement it. And we must devote all necessary attention 
and resources toward executing it.
    If we choose to support the Iraqi opposition, we must move quickly 
to halt the continued disintegration of its organization and the 
further erosion of its meager support inside Iraq. We must also begin 
to work with our allies to find ways to aid the opposition without 
undermining the underlying containment policy.
    If we choose to re-invigorate broad containment then we must decide 
which other aspects of American foreign policy we will be willing to 
sacrifice for the sake of cooperation on Iraq. We must also begin to 
work with our allies to craft compromises, close loopholes in the 
existing sanctions regime, and take decisive action either diplomatic 
or, if necessary, military to compel Iraq to cease its provocations and 
comply in full with the UN resolutions.
    Finally, if we choose to move toward a narrow containment regime we 
must formulate our position and begin negotiations with the other 
members of the Security Council while we still have the leverage of 
comprehensive sanctions.
    Our Iraq policy faces considerable challenges, but it is hardly 
dead. If we do not give it the attention and resources it requires, 
containment will continue to erode and one day we could wake up with no 
choice but to invade Iraq or accommodate Saddam. However, there is 
every reason to believe that containment can be reformed and made to 
last over the long term. Americans don't like containment but we happen 
to be very good at it. We contained the Soviet Union for 45 years until 
it collapsed. We continue to contain both Cuba and North Korea with 
relatively little effort. All of these states were far more formidable 
adversaries than Iraq will ever be. Mr. Chairman, there is no reason we 
cannot continue to contain Iraq as we contained these other rogue 
states, so long as we make the effort to do so.

    Chairman Murkowski. Thank you very much, Dr. Pollack.
    I find your recommendations of containment, to reflect on 
the fact that we have had evidence of their success for the 
last 5, 6, 7 years, I think we have to ask ourselves is Saddam 
Hussein better off today than he was a year ago, 2 years ago, 3 
years ago, 4 years ago?
    The fact that he is able to survive and continue to rebuild 
his economic base, namely oil, through the reconstruction of 
his refineries, his exploration and production of his oilfields 
under this policy certainly supports his continuity as head of 
his regime, and I find that just a stark reality and self-
evident as a consequence of our containment policy.
    Your reference that--the importance of Iraq relative to 
other parts of the world is interesting, as we reflect on the 
reality that we saw Iraq and its objectives 7 years ago 
important enough to fight a war over. The war was over oil and 
power. Who won that war? Saddam Hussein is still with us, and 
still surviving, and I think, if we honestly ask the question, 
Saddam Hussein is better off today than he was 6, 5, 4 years 
ago, whatever.
    Gentlemen, there has been a suggestion of some legislative 
approach to this dilemma. Where we have a policy of 
containment, its success is somewhat in the eyes of the 
beholder. What specific legislation do you have in mind, if 
any, for congressional action that might alleviate this 
dilemma?
    Mr. Perle. Well, Senator, if I could take a crack at that, 
the Majority Leader has sponsored legislation that would begin 
to give some American support to the opposition in Iraq. If you 
believe, as I do, that Saddam Hussein is either going to 
achieve a victory or he is going to be removed but there is no 
in-between, this is not going to be a stand-off. It is not 
going to be a draw. Eventually the sanctions will disappear 
altogether and he will triumph, or he goes before the sanctions 
do.
    But we are dithering now. We are doing nothing to hasten 
his departure. I share high regard for Tom Pickering, but when 
Tom Pickering described as our heart's desire, the hope that 
Saddam might somehow be eliminated, I thought, that is not the 
robust terminology with which I would wish to see American 
policy objectives toward a murderous dictator like Saddam 
Hussein described.
    Our heart's desire that there be a successor regime? There 
is not going to be a successor regime unless we do something 
about it, and contrary to what we have just heard, I believe 
the best possibility of removing Saddam Hussein from power is 
to support the opposition to Saddam Hussein. We have no other 
policy and prospect.
    Chairman Murkowski. Our track record on that relative to 
some previous situations has been that he has been able to take 
care of his adversaries very effectively, even some of his 
relatives.
    Mr. Perle. He has certainly been able to eliminate coups 
against himself. I would not think that would be the way to go 
about it, but there is very widespread dissatisfaction, as you 
might imagine, with Saddam Hussein. There is an opposition, 
with the potential for being mobilized--not by attempting to 
engineer a coup but by very broad and open support for that 
opposition.
    We have talked all morning, and everyone is in agreement 
that we have lost the propaganda war. One of the reasons we 
have lost the propaganda war is that we have shut off the 
opposition propaganda--the opposition to Saddam Hussein. He now 
dominates the air waves in Iraq and in the region, and we have 
turned off the switch on the democratic opposition.
    It seems to me a very short-sighted policy. It is a policy 
of this administration. It is the policy of Under Secretary 
Pickering. It is the policy of the President, the Secretary of 
State, and Sandy Berger, and I do not believe it is going to 
change except under extreme pressure.
    Now, Senator Lott has encouraged change by sponsoring 
legislation to make some money available to the opposition. The 
administration will find ways not to spend that money and not 
to implement the clear intent of Congress, so I would hope that 
you would go further with additional legislation. If necessary, 
there is a time-honored technique in moving administrations, 
and that is to deny them something important to themselves 
until they move in a manner consistent with existing 
legislation.
    Chairman Murkowski. Well, you know, some people say that we 
learn by history, and other people say, we don't learn much. I 
am fascinated with the reference to the posture of Iraq as post 
Versailles Germany. Would any of you care to elaborate a little 
further, because the implications of that are very significant 
relative to what we thought we were doing in Germany at the 
time of conclusion of the first world war, and the ability of 
Germany to rebuild while everybody was technically concerned 
about having put to rest ever again the possibility of Germany 
threatening Europe.
    Go ahead, if you have anything to add. Dr. Kay, I think 
that was your point.
    Dr. Kay. Well, Senator, most people have forgotten, 
although I assume if these walls, or at least the walls 
adjacent to here, could talk they would certainly remember, but 
at the end of the first world war we maintained 100 times more 
inspectors in postVersailles Germany than we have ever had in 
Iraq. There were over 2,500 inspectors running all around 
Germany, and it became almost a Mikado-like dance.
    In fact, the French general who was the last head of the 
inspection regime as he left gave a very famous toast to his 
German counterpart in which he said, I want to thank you for 
helping me not find what you did not want me to find, nor my 
Government wanted me to find. It had become a ritualized dance.
    And it is well-known now that in fact what the Germans did 
in that intervening period is, they trained their Air Force in 
what was then the Soviet Union. They trained a large infantry 
division, maneuvers also with the Soviets. They developed their 
arms industry under the cover of dual-use industries, because, 
in fact, they had both the political will to continue that 
program and the technical knowledge within Germany as to how to 
do it. I would argue that is very much like Iraq now.
    The one thing that I think everyone agrees on is, Saddam 
has no intention of giving up his weapons of mass destruction. 
In fact, when you ask Ambassador Pickering what were the two 
most important things, he said preserving, in fact, the 
capacity to produce weapons of mass destruction, and the 
already existing capacity, was right up there at the top.
    So I think it is very much the same, and I would just say, 
I think in terms of your question about a legislative agenda 
and what can be done, I think the most important thing is what 
the committee has started to do, and that is to focus 
legislative intention on changes that are occurring and being 
denied that they occurred.
    I am almost tempted to paraphrase President Lincoln in a 
question about General Grant in reply to Dr. Pollack. If 
Baghdad remains isolated, I think maybe we had better order a 
case of that isolation for ourselves. Those of us who have been 
in the Gulf over the last 2 years, just as Senator Domenici 
reported, find, in fact, that the person being isolated is the 
United States.
    Containment, let me say, is never a policy. It, too, is 
only a tool, and to cite our experience in the second world war 
is to forget the fact that this country maintained well over 1 
million men and women in Europe for 40 years. We invested a 
huge amount of money in the democratic reformation of European 
societies.
    If you look at the Gulf and ask if those conditions are 
present today, we have to be honest. We are not going to spend, 
nor are the Saudis going to spend, to maintain large American 
troops in the region and, quite frankly, many of our allies in 
that region are more afraid of democratic modernization of 
their own societies than they are of Saddam Hussein.
    Containment, we have had containment for 7 years. It is 
becoming less effective, and we have just got to adjust to 
that. It is not going to work. Containment buys you time, but I 
think Mr. Perle is absolutely right that in fact, unless you 
have a political strategy to change the political landscape of 
Iraq, containment will not last, and you will have misspent 
that time.
    And at the risk of urging one House of the U.S. Congress to 
look at what another House does, let me call to your attention 
to the statement by Representative Porter Goss last week in 
looking at the failures of the intelligence community with 
regard to the issue of Iraq, and subsequently of India, I might 
add. He took them to task for believing that a covert action 
only means assassination and ignoring the important role of 
information operations, of psychological operations designed to 
shape the political landscape.
    I think we have largely walked away from the task of 
supporting political change in Iraq for short-term things that 
we cannot do and do not do well, and ignored the long-term 
policy.
    Chairman Murkowski. Thank you very much, Dr. Kay.
    I want to turn to my colleague Senator Robb, and I would 
ask if you would be kind enough to conclude the hearing this 
morning, or I should say early this afternoon. I have a meeting 
that I am 20 minutes late for.
    Let me thank all of you, and I think what we have 
established for the record here is of great significance, and 
the views that you have expressed I think are pertinent to a 
recognition that Saddam Hussein is not at the peak of public 
concern that he was a few months ago, but nevertheless the 
threat is very real.
    His continued efforts to pursue his own agenda are obvious 
to us all, and the ultimate disposition of that, only history 
will tell us, but it is clear as we look back on our 
obligations in our joint Committees of Foreign Relations and 
Energy & Natural Resources, that we should continue to keep the 
views and the public informed I think on a regular basis and 
consider the recommendations that you have suggested with 
regard to a clear policy toward Saddam Hussein and the dilemma 
associated with just how we reach that.
    I think somebody coined a word, political strategy, and I 
think this current administration lacks a clear definition of 
just what that political strategy is. Maybe they do not have 
it. I think it is important that they address it, and maybe the 
contribution today will be a start in that process.
    I would intend to again have a joint opportunity for both 
committees to meet with intelligence people, the CIA. I want to 
again thank Senator Helms and the professional staff of he 
Foreign Relations Committee for arranging this, as well as my 
own professional staff of the Energy & Natural Resources 
Committee. Thank you again.
    Senator Robb.
    Senator Robb. (presiding) Thank you, Mr. Chairman. I regret 
that I am also now 25 minutes late for an appointment that I 
thought I was going to be able to fulfill and missed one just 
before, and so I will be very brief, and I thank you, 
gentlemen, Mr. Perle, and I thank you, Mr. Chairman, for 
calling the joint hearing.
    It is an important topic. It is a frustrating topic, and I 
think it is important that we engage in these discussions, 
whether we agree or disagree with any of the points that are 
offered and made, and I reluctantly come to the conclusions 
that are more in line with some of the things that Dr. Pollack 
suggested are the inevitable result of a lack of more desirable 
alternatives, but it is not very exciting to say that you are a 
defender of the status quo, or muddle along, or continued 
pursuit of something that clearly is not working effectively.
    But let me focus for a minute, Mr. Perle, if I may, on your 
statement, and I was very interested in what you talked about, 
your 10 points. I knew they were going to be well thought out 
and tough and provocative, and I followed along, with perhaps 
the exception of a word or two I might have changed.
    I was with you through the first six, even the seventh, if 
you accept the premise of the first six as being one point 
following another, whatever the case might be, but when you got 
to the eighth, you said Saddam's eventual political victory 
will be followed by a restoration of his military power, and 
then ninth, only a policy that is openly based on the need to 
eliminate the Saddam Hussein regime has any hope of attracting 
sufficient support in the region to succeed.
    Those two were particularly interesting, and I would have 
to tell you as well, in all honesty, when I turned to 10 and 
then I looked to the next page, and the solution is--and there 
was no next page, so I am pleased that you responded to the 
question about support, at least, for a proposal that has been 
advanced by the Majority Leader.
    Let me ask you a question or two, though, about the 
reality, or the likelihood of the reconstitution of the 
military. Would you give me some assessment of where you think 
Saddam's military in terms of its ability and the threat it 
poses to external neighbors is today, compared to where it was 
at its height, when the invasion of Kuwait took place?
    Mr. Perle. Well, it is clearly much diminished as a result 
of the damage that was inflicted during Desert Storm. I did not 
mean to suggest that we are going to see a significant 
improvement in his military capability while the sanctions are 
in place, but once the sanctions are gone, then I think we will 
see him rebuild his military establishment.
    In any case, I believe he has weapons of mass destruction 
now, and it is almost impossible to factor those into equations 
of a military balance. It is important to remember that Iraq's 
military power is relevant in relation to its neighbors, not in 
relation to the United States, unless we intend to fight that 
war all over again.
    Senator Robb. Which leads us to the ninth, and I do not 
quarrel with your reluctance to assess a particular ratio, or 
whatever, to the current strength as opposed to a former 
strength, or how soon that would occur, or, indeed, that if 
sanctions were removed altogether, the ability to reconstitute 
a more formidable force would certainly be facilitated.
    But in your ninth statement, only a policy that is openly 
based on the need to eliminate the Saddam Hussein regime has 
any hope of attracting sufficient support in the region to 
succeed, now, that is the one I find most interesting and most 
difficult to agree with, not because I do not think Saddam's 
neighbors, like Secretary Pickering, would not in their heart 
of hearts like to see Saddam gone.
    The question is whether they are willing to step up and do 
anything while he is still in power, knowing that the 
consequences that might be visited upon them in the absence of 
some support for others would be far more difficult than the 
situation that exists today.
    Mr. Perle. Senator, I think that is very much the key 
point. I think the answer is that of course they are not going 
to step up to the plate as long as the most we can say is, it 
is our heart's desire that there should be a successor regime.
    That is not a serious policy. It does not represent any 
serious American commitment, and they are not about to risk 
their necks by themselves, which is the situation they would be 
in. It is our weakness----
    Senator Robb. I understand the point you are making. What 
is it that we have to do? Do you think simply suggesting that 
we are going to support an opposition group, and if so, what 
opposition group, what kind of support, and how do you equate 
that, again without going into things that should not be 
discussed in open session, with activities that have been 
widely reported in the last couple of years in terms of other 
reported covert activities?
    Mr. Perle. I think it has been a disastrous string of 
failures on the covert side, and I have no confidence at all, 
which is one reason I use the term openly.
    Senator Robb. I assume you are making a distinction, but I 
am curious as to what would constitute the degree of open 
support that would bring us any hope of changed circumstances.
    Mr. Perle. I think we should first of all say it is our 
objective, not our heart's desire but our objective to see the 
elimination of the regime of Saddam Hussein. We are not talking 
about assassinating him. That is not the official policy of the 
United States today.
    Senator Robb. Although it has been articulated in ways that 
do not come into conflict with our official policy of not 
sanctioning assassinations. I do not think anyone in a position 
of official policy has suggested that they look forward to 
continuing to trying to do business with Saddam Hussein.
    Mr. Perle. But neither has the United States said it is the 
policy of the United States to see the regime of Saddam Hussein 
eliminated from power. If we said that, I think you would see 
an immediate change. It seems to me the first essential step is 
to adopt a policy that our policy is not simply to continue the 
sanctions and hope for the best.
    Senator Robb. Let us assume that whatever words are 
comfortable to you are uttered.
    Mr. Perle. Second, I believe that we should recognize that 
there is an Iraqi opposition whose claim to legitimacy is far 
greater than that of Saddam Hussein, and if it were up to me, I 
would recognize them as a Government of Iraq.
    Senator Robb. A Government in exile?
    Mr. Perle. Well, in exile--some of the individuals involved 
are actually in Iraq.
    Senator Robb. But that is the problem. I am not hostile to 
what you want to do. In fact, I am supportive of what you want 
to do, as I think you know, and I realize there are a number of 
things--you cannot telegraph all of your punches in terms of 
some of the kinds of things you would have to do to carry out 
that kind of policy, but I am frustrated by the fact that we 
continue to offer this alternative without a clear sense of how 
we could accomplish the alternative, and that is what I would 
like you to address.
    Mr. Perle. Well, I think there are credible plans for 
accomplishing the alternative. We would begin with 
reconstituting an organization, an opposition organization 
reflecting all of the people of Iraq.
    I would seek to do it under the Iraqi National Congress, 
which might reconvene and once again go through the election 
process it went through at its inception. I believe the 
leadership will emerge from that. I am confident a leadership 
will emerge from that.
    Senator Robb. In the interim, you would not change what we 
are doing in terms of sanctions? You would wait until that had 
taken place?
    Mr. Perle. Yes. I certainly would not remove the sanctions, 
which would be a political victory for Saddam of enormous 
proportions. My fear is that they will be eroded and collapse 
before we do anything else.
    Senator Robb. Let us assume that this election takes place, 
and someone is chosen by this constituted group to represent 
the preferred alternative to Saddam Hussein. Then what do we 
do?
    Mr. Perle. I think the United States should make it clear 
that any territory that is not under the control of Saddam 
Hussein will be protected by air power, if necessary, from the 
United States and whatever allies we can encourage to 
participate with us.
    Senator Robb. Would you envision a sufficient military 
buildup in the region to provide that kind of support?
    Mr. Perle. No. I do not believe it is necessary.
    Senator Robb. Do you think that we can engage in some kind 
of sustained combat without having sufficient reinforcements 
available to bring that to a conclusion if things do not go our 
way, as our heart of hearts might hope?
    Mr. Perle. They may not go our way, and I cannot tell you 
that I can guarantee the result any more than the current 
policy can guarantee its success, but I believe that the amount 
of air power that we now have in the region is sufficient for 
the protection against Saddam's armor of areas that would 
quickly fall under the control of the opposition, in particular 
the area around Basra in the south of Iraq, which is where all 
the oil is coming from.
    And once Basra changed hands I think the politics of the 
region and the opposition would change dramatically. Even our 
allies would begin to look at things entirely differently. You 
would stop the illegal oil flow.
    Senator Robb. But is someone going to have to physically 
stand on the Basra territory before this dynamic occurs and, if 
so, who? Which troops are going to accomplish that?
    Mr. Perle. I think the Iraqi opposition elements, with 
relatively light armament, could accomplish that provided they 
were backed up by air power.
    Senator Robb. That is what I am coming back to, and again, 
I am not hostile to your intent. In fact, I would like to find 
a way to carry out your intent, because I clearly want Saddam 
Hussein removed, and I think the vast majority here, but let me 
ask you a question about what you believe, Congress' 
willingness to support an administration that would pursue the 
policy that you have just suggested.
    Is there, in your judgment, support, sufficient support to 
provide the wherewithal and the commitment of troops and 
treasure, if you will, to sustain that kind of policy?
    Mr. Perle. Senator, I think in fairness to the Members, 
they would have to look at a plan that they could make some 
judgment about, and what I am talking about here is a plan that 
would depend significantly on air power of a low risk character 
and not on significant American ground presence.
    Senator Robb. But the inherent presumption is that all of 
the necessary land muscle is going to be provided by someone 
else and again, if we had that someone else standing in a queue 
some place waiting to go in----
    Mr. Perle. I believe it can be--look, up until August 1996, 
a third of Iraqi territory was not under Saddam's control. We 
blew it by failing to defend that territory in the manner that 
I am now suggesting. When Saddam moved in, he could have been 
stopped, and I think could have been stopped relatively easily 
even in the north, and it is more difficult in the north than 
in the south, because his armor is so exposed to air power in 
the south.
    I think we could reconstitute that, but the key, the key to 
reconstituting significant areas of Iraq beyond Saddam's 
control--and this depends significantly on the fragility of his 
grasp on his own military establishment, which is a matter that 
is perhaps best discussed in other circumstances.
    I believe that a reconstitution of that could be achieved, 
and the risks in trying are relatively modest. One can make it 
sound a far more formidable task than it really is, and if you 
want guarantees that it will work, then obviously you are 
talking about a much larger operation. There are no guarantees, 
but I think there are people prepared in Iraq, or who would be 
prepared if they knew they had U.S. air power to back them up.
    Senator Robb. Having acknowledged that Saddam still 
possesses the capability at least to constitute and deliver, if 
not nuclear certainly chemical and biological weapons, and with 
concern about nuclear that cannot be ultimately resolved either 
through generation within existing resources or acquired 
through acquisition from outside sources, do you think that the 
proposal like the one you have suggested would result in 
Saddam's use of those weapons of mass destruction, and if he 
were to use those weapons of mass destruction, what do you 
think would be the consequences for the region in terms of 
either support or military activity?
    Mr. Perle. I believe in a properly conducted operation he 
would be in a position to use weapons of mass destruction. I 
think the defections from his own military would be very rapid.
    Senator Robb. Would what has happened with respect to the 
inspectors in place, if not constraining the activity that he 
might otherwise have carried out, have diminished his ability 
to deliver weapons of mass destruction? In other words, would 
you concede that some progress has been made by UNSCOM?
    Mr. Perle. Oh, I am a big supporter of UNSCOM, absolutely. 
One of the signs of deterioration that causes alarm is the 
change in the way UNSCOM is now permitted to operate as opposed 
to the way UNSCOM operated before Kofi Annan. Far from an 
improvement, it is in fact much more difficult for UNSCOM to do 
its job today, not least of all because--and I defer to David, 
who is the expert on this--during the 4 months in which UNSCOM 
was not operating at all in Iraq, everything of interest was 
well hidden, and so our data base was devastated. We are not 
going to find anything, Senator.
    When the President says, well, now we are going to see if 
this new regime, this new arrangement works, forget it. We are 
not going to catch them in violations any time soon, because 
they have moved everything that we thought we might have been 
able to identify.
    Now, if we are there long enough, and we are free enough to 
operate, maybe one of these days we will find something, but it 
is not going to happen soon, and when it does not happen in 6 
or 9 months----
    Senator Robb. I do not think anybody expected us to.
    Mr. Perle. Well, what is the argument going to be a year 
from now when Tarik Aziz says, Kofi Annan negotiated this 
agreement, you all said this was a wonderful step forward, and 
you have not found anything in a year, how much longer are you 
going to continue these sanctions?
    That is what we are facing and I think you understand that.
    Senator Robb. Indeed, and as a matter of fact, we have had 
several meetings, at least in the Foreign Relations Committee, 
I do not know about the Energy Committee, on this very topic, 
and some of you have participated in those discussions.
    But the betting, if you will, at least from this side of 
the desk, was that it would be a matter of months before Tarik 
Aziz or Saddam Hussein or someone else acting in his stead 
declared that we have played your game, you found nothing, it 
is time for you to wrap it up and go home.
    And that is the same advice you are going to be getting if 
you go to Russia, France, and China may or may not come in, 
depending upon whether or not the return head of State visit 
has been completed.
    Mr. Perle. That is why I think we are all concerned about 
where we go from here, and I do not see any new policy 
intervening. I think we are going to coast until we fall off 
the precipice. It is very frustrating, frankly, to see the 
administration mobilize so energetically to resist all the 
ideas that have emanated from the Majority Leader and others 
without finding anything new to put into its own policy.
    Everybody agreed this morning to repeat the phrase that 
sanctions are a tool, not a policy, but they have become a 
policy by default because there is no other aspect to the 
current policy. It is a policy of supporting the sanctions, 
period. There is nothing else going on.
    Senator Robb. I am not sure whether this is being carried 
live some place, but I have got a call from an institution down 
at the other end of the street, and I am not going to respond 
at this point.
    The question of whether or not sanctions are effective to 
the extent we would like them to be, I think there is a broad-
based consensus here in Congress and elsewhere that it is not.
    I think I would challenge your suggestion that the 
administration is fighting all efforts to change or to bring 
about a more effective policy and, again, I have been as tough 
with the administration over a long period of time in urging a 
more proactive, assertive role for the United States in dealing 
with rogue nations in this area and others, and so I am used to 
having my suggestions without the same responsibility to follow 
through listened to politely and not followed, so I am not 
without some concern there.
    But let me--and I think you can sense from my questions 
here that I am frustrated, like you are and like many others, 
that we are not able to come to a more definitive result with 
respect to removing Saddam Hussein from power and moving on, so 
that we can address all of the humanitarian concerns that we 
know are there in one degree or another without regard to 
pinpointing whether they would be more or less if we took one 
action or another.
    Let me, before we close up--and I have spoken exclusively 
to Mr. Perle. Dr. Kay, would either you or Dr. Pollack like to 
have any closing statement?
    And Mr. Perle, I do not want to cut you off. Have you got 
something you would like to say? I do not want to cut you off, 
either.
    Mr. Perle. I was only going to make a suggestion. Because 
of your interest maybe you could persuade the administration to 
get a small group of people together quietly to reflect the 
views you have heard today and talk this through, and see 
whether there may be some common ground.
    What I worry about is that they become terribly defensive 
about Senator Lott's initiative, and so I see no serious fresh 
examination of what the options are.
    Senator Robb. I will present that directly. I happened to 
be part of a small group in the prior administration, right 
after the invasion, that was invited over to consult on that 
question, and I thought it was both valuable and politically 
wise.
    Dr. Kay.
    Dr. Kay. Senator Robb, I think you have asked all the right 
and tough questions that need to be asked with regard to anyone 
who is suggesting an alternative policy. My only concern is 
really twofold, is if that suggests that continuation of the 
current policy is an acceptable alternative, I think that is 
wrong.
    I think the consensus of opinion is that inspections are 
becoming less effective, sanctions are eroding, that what we 
see, as Senator Domenici reported, among our allies is in fact 
a belief that, since we are changing our policy, we are not 
really opposing Saddam, we are going to accommodate slowly 
because we cannot think of an alternative, our allies are also 
going to accommodate and accommodate more rapidly.
    The other thing I would add, and this is difficult to talk 
about in open session, but I will say I think Saddam Hussein is 
not as firmly planted in Baghdad, in control as we often seem 
to think he is and point to, that the issue is, with leadership 
and a new range of policies, if, in fact, our allies in the 
region became convinced that we were dedicated to his 
overthrow, we had come to the conclusion that even a rearmed 
but less powerful Iraq than in 1991, and particularly had 
weapons of mass destruction we were not going to tolerate, they 
would in fact be behind us and, indeed, I think Iraqi 
opposition would arise.
    What has happened is, between 1992 and 1996 we lost 
credibility inside Iraq, and we lost credibility in the region. 
It is difficult for all the king's men to put that Humpty 
Dumpty back together again, but if we do not, the wall is going 
to come tumbling down on top of us. There is not an 
alternative, I believe, to stability and containment.
    We do not have a stable situation now in the Gulf. We have 
a situation that is getting worse by the yo-yo pull of Saddam 
every time. It is quite clear that we did not have as many 
allies this October in this crisis that began in October and 
ended in February and March as we had 6 months before or 12 
months before or 18 months before, and our allies know it and 
Saddam knows it.
    We must reverse that. The questions I think are the right 
ones. I hope, though, in fact, we question the assumptions.
    Senator Robb. I do not want to open up a whole new line of 
questions, but if we were to support--in, say, Afghanistan we 
had Pakistan who assisted in channeling arms and equipment. We 
did not overtly send in the necessary arms, ammunitions, et 
cetera.
    Would you, either you who are proponents of a more dramatic 
near-term change, and if we came to that point, would you 
recommend that we do that directly and overtly, or would you 
have in mind some other ally that would serve that role?
    Mr. Perle. I think you could have a combination of a 
strategy that in its political dimension is absolutely overt. 
We are committed to the replacement of Saddam Hussein by a 
Government reflecting all the people of Iraq, and we could do a 
number of things in support of that.
    To the degree to which that opposition required weapons, 
you could do it either way. There are arguments for doing that 
part of the operation without openly acknowledging it, but that 
seems to me a detail.
    Senator Robb. The devil is in the details.
    Dr. Pollack.
    Dr. Pollack. Thank you, Senator Robb.
    Let me begin by saying that I think it is critical that we 
do explore these kinds of alternatives to containment. 
Nevertheless, you have heard me say that ultimately right now I 
do not think we do have a good alternative to containment.
    That is not to say that we should not have a more 
aggressive containment policy along the lines of the policy 
suggested by Dr. Kay and Mr. Perle, but the problem that I am 
trying to focus a bit of attention on here is that any of these 
suggestions are going to take time to unfold, and during that 
period of time we are going to have to rely on containment to 
hold the line. We have to play defense at the same time that we 
buildup an offensive option, if we are to buildup an offensive 
option against Saddam.
    My concern is that right now we look very hard at 
containment, because as we are all in agreement here, the 
current approach to containment is not succeeding. It is 
eroding, and I think we need to make some very hard choices 
about how we are going to restructure containment and make it 
last over the long term.
    And the worst of all possible worlds is that at some point 
in the future we do adopt either a more aggressive policy 
toward Saddam, or we discover an alternative to containment, 
only to find that we have so badly allowed containment to erode 
that when we finally get around to putting in place this new 
policy, it is impossible, because all the support is gone and 
Saddam is out of his box.
    Senator Robb. I think that is an appropriate place to 
conclude this particular discussion.
    Mr. Perle, Dr. Kay, Dr. Pollack, thank you all for 
participating. This is a discussion to be continued.
    This hearing is adjourned.
    [Whereupon, at 12:50 p.m., the committees adjourned.]


                            A P P E N D I X

                              ----------                              

              Prepared Statement of Senator Larry E. Craig
    Thank you, Mr. Chairman.
    First, I would like to thank the Chairmen of both Committees, 
Senators Murkowski and Helms, for this unique opportunity to address 
the issue of sanctions.
    Mr. Chairman, for years we have been hearing about 
``globalization''--the integration of the world economy. It is a simple 
fact of life that our nation's economic well-being will become more and 
more inter-dependent with that of our trading partners.
    Congress can not change this world trend. We can adapt to it, and 
help guide this development in ways that protect our nation's 
prosperity. Or we can resist change, throw out an anchor, and create an 
economic drag.
    But if we ignore the reality of growing globalization and indulge 
in unilateral sanctions on a whim, we will fail to further our true 
foreign policy objectives and only hurt our own workers and employers.
    In 1997, total U.S. merchandise trade reached almost $1.6 trillion, 
with exports of $688.7 billion and imports of $870.6 billion. Compared 
with our Gross Domestic Product of $8 trillion, trade accounts for a 
fifth of our economy. Twelve million Americans are employed making or 
selling U.S. exports.
    In my own state of Idaho, no fewer than 58 companies are registered 
with the Department of Commerce1s National Trade Data Base. I am told 
by members of the business community that, for a variety of reasons, 
this figure probably is understated by as much as one-half.
    Idaho's exporters, in 1996, sold $1.67 billion worth of merchandise 
to the rest of the world. This does not even count services and foreign 
military sales, which typically add up to a similar number.
    Idaho's exporters, like those of the rest of the nation, sell a 
diverse assortment of goods and services overseas. Our largest 
merchandise export sectors include machinery, electrical and electronic 
equipment, agricultural and food products, chemical and allied 
products, wood and paper products, and transportation equipment.
    In other words, in Idaho, like the rest of the nation, virtually no 
worker, no household, and no sector of the economy is isolated from the 
benefits of trade, and the benefits of being able to sell our exports.
    However, despite the growing need to embrace international trade, 
the growing trend here in the U.S. has been to move away. In the four 
year period from 1993 to 1996, there were 61 laws and executive actions 
which authorized unilateral economic sanctions against 35 countries. 
According to one study, by Donald Losman for ``Business Economics'' 
magazine, these actions have placed 42 percent of the world's 
population and almost $800 billion worth of exports off limits to U.S. 
businesses. In 1996 alone, there were 23 cases of sanction imposed by 
the U.S.
    Now, the nation is alive with talk about the possibility of 
imposing unilateral sanctions against India and Pakistan--two nations 
which have historically been important markets for American products. 
While the decision as to what must be done regarding India and Pakistan 
has yet to reach the Senate, I am pleased to note that the actions 
being contemplated by the Administration would not affect food and 
other agricultural products.
    Mr. Chairman, I have never supported the use of food as a foreign 
policy weapon. To do so would have a direct negative impact on U.S. 
farmers. To them, trade simultaneously represents the best opportunity 
for, and the biggest challenge to, their fiscal stability. Despite 
increasing efficiencies and continued growth in domestic production, 
exports of agricultural products are actually declining. Agricultural 
exports for FYI 998 are forecast to fall $1.3 billion, to $56 billion, 
and our imports will grow $2.2 billion, or 6 percent, to $38 billion. 
if current trends continue, the agricultural trade surplus will fall 16 
percent this year, or $3.5 billion.
    Now, Mr. Chairman, there are those who would support the inclusion 
of agricultural products in any unilateral sanction issued by the U.S. 
It has been done before--against Iran and others. I do not agree. The 
use of food as a weapon is wrong. Starving populations into submission 
is poor foreign policy. And requiring American farmers to pay the price 
for our questionable foreign objectives is intolerable.
    I don't oppose all sanctions at all time. Sometimes, sanctions are 
warranted. The case certainly is there to be made that multilateral 
sanctions imposed by the international community can be effective in 
pursuing common goals. As a Senator who voted against NAFTA and GATT, I 
insist that a bad trade agreement is not better than no agreement at 
all. We can and should insist on trade agreements that are fair to 
American workers and employers. And I would not rule out unilateral 
action by the U.S. in every case, when vital foreign policy interests 
are at stake.
    But any sanctions, any actions, initiated or supported by the 
United States should involve issues critical to our national interest, 
have clear objectives, have a high probability of effectiveness, be 
applied with prudence and objectivity, and anticipate the potential 
costs and benefits to Americans here and abroad.
    I implore my colleagues and the Administration to not interfere 
with trade in agricultural products as a means to any political end.
    Thank you again, Mr. Chairman. I realize my comments have gone 
beyond the scope of today's joint hearing. However, I want the people 
of my state and my colleagues in the Senate to know where I stand on 
the issue of sanctions. I appreciate the Chairman's indulgence and that 
of my fellow Committee members.

                               <greek-d>

      
</pre></body></html>
